No. 20-____
IN THE

Supreme Court of the United States
————
SIMON CAMPBELL AND
PENNSYLVANIANS FOR UNION REFORM,
Petitioners,
v.
PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, SOLELY IN HIS INDIVIDUAL
CAPACITY; DAVID HUTCHINSON, SOLELY IN HIS
INDIVIDUAL CAPACITY; OTTO W. VOIT, III,
SOLELY IN HIS INDIVIDUAL CAPACITY;
KATHY SWOPE, SOLELY IN HER INDIVIDUAL CAPACITY;
LAWRENCE FEINBERG, SOLELY IN HIS INDIVIDUAL
CAPACITY; ERIC WOLFGANG, SOLELY IN HIS
INDIVIDUAL CAPACITY; DANIEL O’KEEFE, SOLELY
IN HIS INDIVIDUAL CAPACITY; DARRYL SCHAEFER,
SOLELY IN HIS INDIVIDUAL CAPACITY; THOMAS KEREK,
SOLELY IN HIS INDIVIDUAL CAPACITY; AND
LYNN FOLTZ, SOLELY IN HER INDIVIDUAL CAPACITY,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
JACOB C. COHN
Counsel of Record
ILAN ROSENBERG
GORDON & REES
1717 Arch Street
Philadelphia, PA 19103
(215) 717-4004
jcohn@grsm.com
Counsel for Petitioners
March 15, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
Petitioners, vocal critics of public school teacher
unions and the school districts in which they operate,
were engaged in First Amendment-protected free speech
and petitioning activities when they were sued by the
Respondents, an association of public school boards
governed by 10 elected public school officials—all state
actors—in an objectively baseless lawsuit in state
court specifically targeting Petitioners’ free speech
and petitioning, with the admitted intention of chilling
Petitioners’ exercise of their First Amendment rights.
In response, Petitioners filed a federal civil rights
action seeking to enjoin the lawsuit and vindicate their
First Amendment rights. Petitioners’ evidence was
sufficient to establish the three generally accepted elements of a First Amendment retaliation claim under
42 U.S.C. § 1983, i.e., (1) constitutionally protected
speech and/or conduct, (2) retaliatory action sufficient
to deter a person of ordinary firmness from exercising
his constitutional rights, and (3) a “but-for” causal link
between the constitutionally protected conduct and
the retaliatory action. The state actor Respondents,
however, claimed that they were entitled to “NoerrPennington” petitioning immunity for their baseless
lawsuit. The District Court agreed, and granted summary
judgment to the Respondents.
On appeal, the Third Circuit held that state actors
may claim constitutional petitioning immunity in filing
retaliatory civil lawsuits, but that such protection is
lost if the lawsuit is both objectively and subjectively
a “sham.” That court agreed that Petitioners had
shown the state lawsuit to be objectively baseless, and
filed with the intent of chilling Petitioners’ First
Amendment speech and activities. Nevertheless, it
(i)

ii
held that Petitioners had failed to show that the
lawsuit was a “subjective” sham and affirmed the
district court’s refusal to enjoin the baseless and retaliatory lawsuit.
The questions presented, therefore, are:
1. Are state actors, acting under color of state law,
entitled to claim petitioning immunity from liability
for a First Amendment retaliation claim brought under
42 U.S.C. § 1983?
2. If such immunity exists, is a showing that a state
actor’s civil lawsuit was (a) objectively baseless, and
(b) filed for the purpose and with the intent of chilling
First Amendment-protected speech and petitioning activities sufficient to overcome any petitioning immunity
claimed by the state actor?

iii
DIRECTLY RELATED CASES
This case arises out of a civil action commenced by
Petitioners in the U.S. District Court for the Eastern
District of Pennsylvania, and appealed to the U.S.
Court of Appeals for the Third Circuit:


Simon Campbell, et al. v. Pennsylvania School
Boards Association, et al., No. 18-CV-892,
U.S. District Court for the Eastern District of
Pennsylvania. Judgment entered August 24,
2018.



Simon Campbell, et al. v. Pennsylvania School
Boards Association, et al., No. 18-3112,
U.S. Court of Appeals for the Third Circuit.
Judgment entered August 27, 2020. Rehearing
denied October 16, 2020.

The names of all parties appear on the cover, and
there are no other directly related proceedings within
the meaning of this Court’s Rule 14.1(b)(iii).

iv
RULE 29.6 DISCLOSURE
Pennsylvanians for Union Reform, a non-profit corporation, has no parent corporation, and no publicly
held company otherwise directly or indirectly owns
10% or more of Pennsylvanians for Union Reform.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

DIRECTLY RELATED CASES ..........................

iii

RULE 29.6 DISCLOSURE ..................................

iv

TABLE OF AUTHORITIES ................................

viii

INTRODUCTION ................................................

1

OPINIONS BELOW ............................................

5

JURISDICTION ..................................................

6

RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED ......

6

STATEMENT ......................................................

7

A. Statutory Background of Pennsylvania’s Right to Know Law ........................

7

B. Petitioners’ Constitutionally Protected
Speech and Petitioning Activities ..........

9

C. Respondents File, and then Amend,
an Objectively Baseless State Court
Complaint ...............................................

11

D. Proceedings in the District Court ..........

13

E. The Third Circuit Appeal.......................

15

REASONS FOR GRANTING THE PETITION..

18

I.

II.

PROTECTING FIRST AMENDMENT
RIGHTS IS A MATTER OF PARAMOUNT
IMPORTANCE .............................................

18

THE THIRD CIRCUIT’S DECISION IS
WRONG ........................................................

20

(v)

vi
TABLE OF CONTENTS—Continued
Page
A. In Every Context Where It Has Been
Recognized, this Court Has Imposed
Limits on Petitioning Immunity to
Prevent Abuse ........................................

21

B. The Circuits Are Split on Whether and
How to Allow State Actors to Claim
Noerr-Pennington and/or Petition Clause
Immunity.................................................

23

C. The Third Circuit’s Ruling Improperly
Allows State Actors to Use NoerrPennington’s Shield as a Retaliatory
Sword ......................................................

25

III. THE QUESTIONS PRESENTED ARE
EXCEPTIONALLY
IMPORTANT,
CLEARLY FRAMED, AND THIS CASE IS
AN
EXCELLENT
VEHICLE
FOR
RESOLVING
THE
QUESTIONS
PRESENTED ...............................................

29

CONCLUSION ....................................................

30

APPENDIX
APPENDIX A: SUR PETITION FOR REHEARING, Court of Appeals for the Third Circuit
(October 16, 2020) ........................................

1a

APPENDIX B: OPINION, Court of Appeals for
the Third Circuit (August 27, 2020) ............

3a

APPENDIX C: JUDGMENT, Court of Appeals
for the Third Circuit (August 27, 2020) .......

31a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX D: MEMORANDUM, District Court
for the Eastern District of Pennsylvania
(August 23, 2018) .........................................

33a

APPENDIX E: ORDER, District Court for the
Eastern District of Pennsylvania (August
23, 2018)........................................................

70a

APPENDIX F: MEMORANDUM, District Court
for the Eastern District of Pennsylvania
(June 21, 2018) .............................................

73a

APPENDIX G: Act of Feb. 14, 2008, P.L. 6,
No. 3 Codified at 65 Pa. Stat. §§ 67.101
et seq. ............................................................

92a

§ 67.101 .........................................................

92a

§ 67.102 .........................................................

92a

§ 67.302 .........................................................

94a

§ 67.305 .........................................................

94a

§ 67.506 .........................................................

94a

§ 67.703 .........................................................

95a

§ 67.708 .........................................................

95a

§ 67.1308 .......................................................

95a

§ 67.1310 .......................................................

96a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

A.D. Bedell Wholesale Co. v. Philip Morris
Inc., 263 F.3d 239 (3d Cir. 2001) ..............

25

BE&K Constr. Co. v. NLRB,
536 U.S. 516 (2002) ...................................

22

Bill Johnson’s Rests. v. NLRB,
461 U.S. 731 (1983) ...................................

22

Borough of Duryea, Pa. v. Guarnieri,
564 U.S. 379 (2011) ................................... 27, 28
Brentwood Academy v. Tennessee
Secondary School Athletic Association,
531 U.S. 288 (2001) ...................................

13

Brownsville Golden Age Nursing Home,
Inc. v. Wells,
839 F.2d 155 (3d Cir. 1988) ......................

23

California Motor Transport Co. v. Trucking
Unlimited,
404 U.S. 508 (1972) ................................... 21, 22
Campbell v. Pa. Sch. Boards Ass’n,
336 F. Supp. 3d 482 (E.D. Pa. 2018) ........

5

Campbell v. Pa. Sch. Boards Ass’n,
972 F.3d 213 (3d Cir. 2020) ......................

5

Campbell v. Pa. Sch. Boards Ass’n,
2018 WL 3092292 (E.D. Pa., June 20,
2018) ..........................................................

5

Coulter v. Pa. Bd. of Prob. & Parole,
48 A.3d 516 (Pa. Cmwlth. 2012) ...............

8

Crawford-El v. Britton,
523 U.S. 574 (1998) ...................................

16

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Eastern Railroad Presidents Conference v.
Noerr Motor Freight, Inc.,
365 U.S. 127 (1961) ..................................passim
First Nat’l Bank v. Bellotti,
435 U.S. 765 (1978) ...................................

18

Garrison v. Louisiana,
379 U.S. 64 (1964) .....................................

18

Hartman v. Moore,
547 U.S. 250 (1996) ................................. 1, 3, 19
Herr v. Pequea Twp.,
274 F.3d 109 (3d Cir. 2001) ................ 23, 24, 25
Hunsicker v. Pa. State Police,
93 A.3d 911 (Pa. Cmwlth. 2014) ...............

8

Manistee Town Center v. City of Glendale,
227 F.3d 1090 (9th Cir. 2000) ..................

24

Mariana v. Fisher,
338 F.3d 189 (3d Cir. 2003) ............14, 15, 23, 25
NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982) ...................................

22

NARA v. Favish,
541 U.S. 157 (2004) ...................................

8

New York Times Co. v. Sullivan,
376 U.S. 254 (1964) ...................................

18

Nieves v. Bartlett,
139 S. Ct. 1715 (2019) ............................... 3, 4, 5
Office of the DA of Phila. v. Bagwell,
155 A.3d 1119 (Pa. Cmwlth. 2017) ...........

7, 8

x
TABLE OF AUTHORITIES—Continued
Page(s)
Parker v. Brown,
317 U.S. 341 (1943) ...................................

25

Professional Real Estate Investors v.
Columbia Pictures Indus., Inc.,
508 U.S. 49 (1993) ....................................passim
Robertson v. Wegmann,
436 U.S. 584 (1978) ...................................

19

Sanghvi v. City of Claremont,
328 F.3d 532 (9th Cir. 2003) .....................

24

Starnes v. Butler Cnty. Court of
Common Pleas,
971 F.3d 416 (3d Cir., 2020) .....................

26

Thomas v. Indep. Twp.,
463 F.3d 285 (3d Cir. 2006) ......................

26

United Mine Workers v. Pennington,
381 U.S. 657 (1965) ..................................passim
Video Int’l Prod., Inc. v. Warner-Amex
Cable Commc’ns., Inc.,
858 F.2d 1075 (5th Cir. 1988) ................... 16, 24
Willing v. Mazzocone,
393 A.2d 1155 (Pa. 1978) ..........................

12

CONSTITUTION
U.S. Const. amend. I ...................................passim
STATUTES
28 U.S.C. § 1254(l) ........................................

6

42 U.S.C. § 1983 ..........................................passim

xi
TABLE OF AUTHORITIES—Continued
Page(s)
5 U.S.C. § 552 ...............................................

7

65 Pa. Stat. §§ 67.101 et seq ........................passim
65 P.S. § 67.301(b) ........................................

8

65 P.S. § 67.305 ............................................

8

65 P.S. § 67.506(a) ........................................

9

65 P.S. § 67.506(d)(1)....................................

8

65 P.S. § 67.708 ............................................

8

65 P.S. § 67.1308 ..........................................

9

INTRODUCTION
“Official reprisal for protected speech offends the
Constitution [because] it threatens to inhibit exercise
of the protected right.” Hartman v. Moore, 547 U.S.
250, 256 (1996) (citations and internal quotation marks
omitted). This is a First Amendment retaliation suit,
arising under 42 U.S.C. § 1983, for injunctive relief
and damages.
Petitioners, Simon Campbell and Pennsylvanians
for Union Reform (PFUR), are well-known activists
who use Pennsylvania’s broad “Right to Know Law”
(RTKL), their website, and direct communications with
public officials to obtain information from government
entities and advocate their views on public union and
public school reform. Respondents are 10 elected government officials and the association of government
agencies they run for the collective benefit of those
government agencies, Pennsylvania School Boards
Association (PSBA), who invoked the Petition Clause
to shield their use of a retaliatory lawsuit to silence
their critics.
In 2017, Petitioners made two statewide RTKL
requests of the school district members of PSBA, the
second of which sought financial and other information concerning those districts’ relationships with
PSBA, and lobbied the member districts to discontinue
their memberships in PSBA. Petitioners further posted
criticisms of PSBA on PFUR’s website.
In direct and express retaliation, PSBA filed a state
court tort action (State Lawsuit) asserting frivolous
claims for defamation, abuse of process, and “tortious
interference” with PSBA’s “contractual relations”
with its public school district members, all based on
Petitioners’ speech and petitioning activities. As the

2
Third Circuit emphasized, “[i]ndeed, PSBA did sue
Campbell to get him to stop his RTKL-related conduct
and PSBA never attempted to disguise or deny that
objective.” App. 28a. In addition to being objectively
baseless, none of the asserted causes of action could
have led to any injunction or other judicial remedy
that would have forced Petitioners to cease making
RTKL requests.
Normally, these facts would suffice to establish liability for First Amendment retaliation under 42 U.S.C.
§ 1983, the claim Petitioners asserted. Petitioners’ speech
obviously was protected by the First Amendment’s
Free Speech Clause, and their RTKL requests for
government records—which also lobbied the receiving
school districts to quit their PSBA memberships—by
the Petition Clause. Undoubtedly, Respondents would
not have filed (and then amended) the retaliatory
State Lawsuit “but for” Petitioners’ speech and petitioning. But the Third Circuit held that such retaliatory
conduct by Respondents—government actors all—itself
is immunized under the “Noerr-Pennington” doctrine,
although that doctrine has never been held to shelter
outright First Amendment retaliation by this or any
other court that Petitioners could identify.
The Third Circuit did hold that “Noerr-Pennington”
immunity is lost if the lawsuit at issue is “baseless.”
The problem is that, having imported such immunity
into the civil rights arena, the Third Circuit applied a
definition of the “sham” exception that ignores the
very context in which this case arises: a claim of First
Amendment retaliation. The Third Circuit “accept[ed]
the District Court’s conclusion that PSBA’s State Suit
is objectively baseless, as the First Amendment protected all of [Petitioners’] alleged activities.” App. 25a.
Nonetheless, while acknowledging that Respondents’

3
express goal was to halt Petitioners’ speech and petitioning activity, according to that court, Petitioners
could not make out the “subjective” element of the
supposed “sham” exception—meaning that the lawsuit
is an effort to “use the governmental process—as
opposed to the outcome of that process—as [a] weapon.”
Professional Real Estate Investors v. Columbia Pictures
Indus., Inc. (“PREI”), 508 U.S. 49, 60-61 (1993)
(original emphasis, internal citation omitted).
No prior decision of this Court has held that state
actors can be insulated from civil rights liability for
filing a baseless suit for the purpose and effect of
retaliating against First Amendment-protected activities
based on their own claimed First Amendment petitioning immunity. The Third Circuit’s application and
interpretation of petitioning immunity to protect state
actors’ retaliatory SLAPP suit conflicts with the bedrock
principle that “‘as a general matter the First Amendment prohibits government officials from subjecting
an individual to retaliatory actions or engaging in
protected speech.” Nieves v. Bartlett, 139 S. Ct. 1715,
1722 (2019) (quoting Hartman, 547 U.S. at 256).
This case is not like others where lower courts have
recognized petitioning immunity for government
officials who participated in regulatory proceedings or
petitioned courts for the purpose of protecting public
safety and health. Here, there is no doubt that the
purpose of the State Lawsuit was to censor Petitioners.
As the Third Circuit recognized, ample evidence exists
in the record to support a finding that Respondents’
true interest lay in silencing Petitioners’ political
speech and coercing Petitioner to stop making RTKL
requests that Respondents found objectionable. App.
27a-30a.

4
Moreover, prior decisions of this Court have enunciated
principles that guide the application of the NoerrPennington doctrine outside the antitrust context
where it originated, and even if petitioning immunity
could supply a defense to naked First Amendment
retaliation, the Third Circuit’s opinion violates those
precedents. As this Court’s precedents already teach,
an objectively baseless lawsuit is enjoinable if there is
evidence of “indifference to the outcome on the merits”
of the suit; or where any recovery “would be too low
to justify . . . investment in the suit;” or where the
litigant “decided to sue primarily for the benefit of
collateral injuries inflicted through the use of legal
process.” PREI, 508 U.S. at 65.
Further, this case is unlike First Amendment retaliation cases, where “but for” causation is in question,
or other constitutional interests are involved—such as
Nieves, a retaliatory arrest case involving the interplay
of First Amendment, Fourth Amendment, and law
enforcement considerations.
Again, by contrast,
causation here has been established, and purely First
Amendment interests are at stake. Petitioners’ and
Respondents’ allegedly “competing” First Amendment
interests are not equal, and the Third Circuit’s
treatment of them as such provides cover—here and in
the future—for the worst inclinations of government
officials who tire of their critics.
The Third Circuit held that state actors may
take action expressly intended to retaliate for First
Amendment protected expression and petitioning
activity—and for the express purpose of chilling that
protected activity—so long as the retaliation takes the
form of a lawsuit against the speaker. That decision is
inconsistent with established law and offensive to the
very First Amendment principles it invokes. Further,

5
it is inconsistent with Nieves, where this Court only
two terms ago held that, even in the law enforcement
context, the existence of probable cause for an arrest
is not categorically dispositive of a First Amendment
retaliation claim if the plaintiff can prove that
retaliatory animus in fact was the motivating “but-for”
reason for a discretionary arrest.
This Court should grant certiorari to affirm that the
paramount rights requiring protection here are the
First Amendment free speech and petitioning rights
of private citizens. Properly understood and applied,
whatever petitioning immunity these state-actor
Respondents might be afforded must yield in these
circumstances to the First Amendment rights of Petitioners to be free from retaliation for their petitioning
and political speech in the form of a spurious SLAPP
suit brought by Respondents—self-appointed enforcers
of a non-existent “line” limiting the speech and activities of disfavored political adversaries.
OPINIONS BELOW
The Third Circuit’s opinion (App. 3a-30a) is reported
at 972 F.3d 213 (3d Cir. 2020). The opinion of the U.S.
District Court for the Eastern District of Pennsylvania
granting summary judgment in Respondents’ favor
(App. 33a-69a) is reported at 336 F. Supp. 3d 482
(E.D. Pa. 2018). The District Court’s opinion denying
Respondents’ motion to dismiss (App. 73a-91a) is not
reported in the Federal Supplement, but is available
on Westlaw at 2018 WL 3092292 (E.D. Pa., June 20,
2018).

6
JURISDICTION
The Third Circuit entered judgment on August 27,
2020 (App. 31a-32a), and denied Petitioners’ Petition
for Rehearing on October 16, 2020. App. 1a-2a.
This Court has jurisdiction under 28 U.S.C. §
1254(1).
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Constitution of the United States, First Amendment, provides:
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of the press; or the right of
the people peaceably to assemble, and to
petition the Government for a redress of
grievances.
42 U.S. Code § 1983. Civil action for deprivation of
rights, provides in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit
in equity, or other proper proceeding for
redress. . . .
The appendix (App. 92a-96a) reproduces relevant
provisions of Pennsylvania’s Right to Know Law, Act

7
of Feb. 14, 2008, P.L. 6, No. 3, codified at 65 Pa. Stat.
§§ 67.101 et seq.
STATEMENT
A. Statutory Background of Pennsylvania’s
Right to Know Law
Respondents’ State Lawsuit was expressly filed in
retaliation for Respondents having made RTKL requests
of PSBA’s member school districts—including requests
that sought financial information concerning each
district’s contracts with PSBA (and lobbied the districts
to discontinue their PSBA memberships)—requests
that Respondents had express statutory authorization
to make under Pennsylvania law.
Pennsylvania’s Right to Know Law, 65 Pa. Stat.
§§ 67.101 et seq. was enacted “to promote access to
official government information in order to prohibit
secrets, scrutinize the actions of public officials, and
make public officials accountable for their actions.”
Office of the DA of Phila. v. Bagwell, 155 A.3d 1119,
1130 (Pa. Cmwlth. 2017) (“Bagwell”) (internal quotation and citation omitted). This Court similarly has
recognized the purpose of the Freedom of Information
Act, 5 U.S.C. § 552, the federal counterpart to the
RTKL, and its importance and value to true selfgovernment:
FOIA is often explained as a means for
citizens to know “what the Government is up
to.” This phrase should not be dismissed as a
convenient formalism. It defines a structural
necessity in a real democracy. The statement
confirms that, as a general rule, when documents are within FOIA’s disclosure provisions,
citizens should not be required to explain why
they seek the information. A person requesting

8
the information needs no preconceived idea of
the uses the data might serve. The information belongs to citizens to do with as they
choose.
NARA v. Favish, 541 U.S. 157, 171-72 (2004) (citation
omitted).
Government agency records are presumed public
by the RTKL, subject to specified exceptions which
themselves are “narrowly construed so as not to frustrate the remedial purpose of the RTKL.” Bagwell, 155
A.3d at 1130. Under the RTKL, “a requester has a
legislatively granted and judicially enforceable right
to secure information from the hands of government”
to inquire and investigate government, and “within
explicit, enacted constraints—to go fishing.” Id. at
1138. “The rights afforded a requester under the
RTKL are constrained by the presumption and exemptions contained in the law itself.” Id. at 1139 (citing
65 P.S. §§ 67.305, 67.708).
Records made public under the RTKL are “open to
the entire public at large.” Coulter v. Pa. Bd. of Prob.
& Parole, 48 A.3d 516, 519 (Pa. Cmwlth. 2012). The
identity and subjective intentions of the requester are
legally irrelevant to the validity of a request. See
Hunsicker v. Pa. State Police, 93 A.3d 911, 913 (Pa.
Cmwlth. 2014); 65 P.S. § 67.301(b). The RTKL also
explicitly provides for public access to records related
to a public contract, even if those records are in the
possession of the contractor, rather than the government agency. 65 P.S. § 67.506(d)(1) (which is why
Petitioners could ask school districts to produce information in the possession of PSBA about services it
provided pursuant to its contracts with its members).

9
No agency policy or regulation may include a
“limitation on the number of records which may be
requested or made available for inspection or duplication” nor may it include a “requirement to disclose the
purpose or motive in requesting access to records.” 65
P.S. § 67.1308. There is no limit on the number of
government agencies to which a requester may direct
a RTKL request, nor is there any such thing as a
“lifetime maximum” to the number of requests a
requester may make.
The RTKL itself provides remedies—to the receiving
governmental entities, not to PSBA—which can deny
a statutorily-defined “disruptive” request. 65 P.S.
§ 67.506(a). Notably, not a single school district denied
the RTKL requests for which PSBA sued Campbell on
the ground that it was “disruptive.”
B. Petitioners’
Constitutionally
Protected
Speech and Petitioning Activities
Petitioners Campbell and PFUR, the nonprofit he
founded, are vocal critics of public teacher unions and
school districts in which they operate. They are also
passionate advocates for government transparency.
Their advocacy work is conducted through a number
of channels, including the filing of RTKL requests,
lobbying government officials directly, and by maintaining an official PFUR website. App. 34a. Following
PSBA’s filing of the State Lawsuit, Campbell personally established a website, www.psbahorror.com. App.
34a-35a.
Respondent PSBA is a Pennsylvania-incorporated, nonprofit association comprised exclusively of Pennsylvania
public school boards, nearly all of which hold PSBA
membership. App. 35a. PSBA is governed entirely by
government officials, elected by government entities to

10
its Governing Board. App. 36a. The individual Respondents were the ten voting members of PSBA’s 2017
Governing Board (“Board”) who voted unanimously to
authorize the State Lawsuit against Petitioners. App.
42a.
PSBA’s mission and relationship with its membership had been a focus of Petitioners’ advocacy since
March 2017, when Petitioners sent RTKL requests to
“most, if not all, public school agencies” in Pennsylvania.
App. 38a. In response to these requests, PSBA offered
its member school boards two sets of “guidance”
regarding Petitioners’ RTKL requests, advising school
boards that they could withhold some of the requested
information, and require Campbell to pick up the
documents Petitioners sought in person—contrary to
the position of Pennsylvania’s Office of Open Records,
the state agency charged with implementing and
enforcing the RTKL. Petitioners posted these “guidance”
e-mails on PFUR’s website on a page titled “PSBA
Horror.” App. 7a.
In May 2017, Petitioners emailed another set of
RTKL requests to approximately 600 public school
entities. App. 39a. Among numerous requests, Petitioners
requested that each public school entity provide information about its contractual relationship with PSBA
and financial records related to those contracts that
Petitioners believed to be in the possession of PSBA,
but accessible under the RTKL. App. 39a-40a. In the
transmittal emails, Campbell wrote, “I call upon elected
school officials to terminate the taxpayers’ forced relationship with PSBA. Revoke PSBA membership. . . .
Stop making taxpayers fund the salaries and . . .
pensions of a private corporation’s employees.” App.
40a.

11
Petitioners also used PFUR’s website to air criticisms of PSBA and, in particular, PSBA’s advice to its
members to resist Petitioners’ RTKL requests, and
only to make documents available at the “district
offices” across Pennsylvania for “pickup.” App. 40a42a. Some of that criticism took the form of satirical
cartoons criticizing PSBA’s taxpayer funding and
advice regarding the RTKL. Id. Petitioners also published their email exchanges with PSBA’s General
Counsel, as well as other correspondence expressing
criticism of PSBA and its responses to Petitioners’
RTKL requests. Id.
C. Respondents File, and then Amend, an
Objectively Baseless State Court Complaint
On July 17, 2017, PSBA, at the unanimous direction
of its Board of elected government officials, sued
Petitioners in the State Lawsuit asserting that several
of Petitioners’ statements were defamatory, that
Petitioners’ use of the RTKL amounted to “abuse of
process,” and that their lobbying the school districts to
sever their ties with PSBA constituted “tortious
interference” with PSBA’s contractual relations with
its member public school entities. App. 42a.
As was established in the lower courts, PSBA’s
claims were all objectively baseless. App. 58a-60a. All
of Petitioners’ RTKL requests constituted statutorily
authorized, constitutionally privileged, government
petitioning. All of their internet postings were satire
and otherwise non-defamatory opinions and statements about PSBA—a public figure. App. 48a-57a.
Moreover, PSBA could never have accomplished its
stated goals—making Petitioners stop making RTKL
requests of PSBA’s member school districts and lobbying them to quit PSBA, and stop publicly criticizing

12
PSBA by prevailing in the State Lawsuit. As for the
RTKL requests, there was no claim seeking to halt
Petitioners’ RTKL requests, nor could there have been
one. Petitioners had every right to make as many
RTKL requests of as many government entities as
they wished. It was up to the school districts themselves to evaluate Petitioners’ requests and deny them
as statutorily “disruptive”—which none of them did.
Instead, many school districts sought to collect responsive records from PSBA to provide to Petitioners. App. 40a.
As for ending Petitioners’ public criticism, PSBA
sought no injunction, and Pennsylvania law does not
allow a court to enjoin allegedly defamatory speech.
Willing v. Mazzocone, 393 A.2d 1155, 1157 (Pa. 1978).
Thus, forcing Petitioners to stop making RTKL
requests to school districts and stop publicly criticizing
PSBA could only have been accomplished by using the
process itself as the weapon.
At first, Campbell, individually, continued speaking
out, criticizing PSBA, moving the allegedly defamatory
content from PFUR’s web site to www.psbahorror.com,
a web site maintained and funded by Campbell
personally, and lobbying its member school boards to
pass resolutions calling for PSBA to withdraw the
State Lawsuit (over 20 school districts in fact did so).
App. 66a. In December 2017, PSBA made a settlement
demand that would have censored Petitioners’ First
Amendment activities. App. 29a. Promptly after Petitioners rejected PSBA’s demands, PSBA amended its
complaint to sue Petitioners for Campbell’s post-suit
First Amendment speech and petitioning activities.
App. 28a. Thereafter, Campbell ceased all PSBArelated speech and activities, and removed the allegedly
offending web postings from public view.

13
D. Proceedings in the District Court
Petitioners sued PSBA and its ten voting Board
members (all elected public officials) in the United
States District Court for the Eastern District of
Pennsylvania alleging that PSBA’s pursuit of the
State Lawsuit constituted prohibited state action in
retaliation for Petitioners’ exercise of their First Amendment free speech and petitioning rights. Campbell
sought an injunction requiring PSBA to dismiss the
State Lawsuit, and damages.
As relevant here, Respondents moved to dismiss
the Complaint, arguing that the State Lawsuit is
protected by the Noerr-Pennington doctrine and that
they were not state actors. The district court denied
Respondents’ motion in a June 20, 2018 Memorandum
and Order, holding, inter alia, that PSBA is a “state
actor” under the “pervasive entwinement” test announced
in Brentwood Academy v. Tennessee Secondary School
Athletic Association, 531 U.S. 288 (2001).1 App. 79a71a.
The district court, though, held that Respondents
were entitled to invoke “Noerr-Pennington” immunity
unless Petitioners could show that the State Lawsuit
was a “sham,” both objectively and subjectively.2 That
1

Given this conclusion, the district court had no occasion to
address Petitioners’ alternative theory of state action, i.e., that
even if PSBA were itself considered a private actor, the ten
individual defendants who served as PSBA’s voting directors held
their positions solely by virtue of their status as publicly elected
members of school boards that themselves were voting members
of PSBA, and thus were acting under color of state law in voting
to cause PSBA to file the State Lawsuit.
2

That court rejected Petitioners’ position that Noerr-Pennington
does not protect state actors with respect to First Amendment
retaliation claims (App. 82a.), a position that Petitioners continued

14
court based its holding on a single case, Mariana v.
Fisher, 338 F.3d 189 (3d Cir. 2003), a Sherman Act
lawsuit where the Third Circuit held that Pennsylvania’s
attorney general was immunized by Noerr-Pennington
from anti-trust liability for Pennsylvania’s participation
in a multi-state settlement with cigarette manufacturers
that created an otherwise forbidden output cartel.3
Respondents thereafter filed a motion for summary
judgment, raising the same issues as their motion to
dismiss, plus an argument that Petitioners’ actions
were not protected by the First Amendment. On
August 24, 2018, the district court granted Respondents’
motion for summary judgment. In its opinion, that
court concluded that Petitioners’ RTKL requests, commentary, and lobbying activities all were protected by
the First Amendment, and that every claim in the
State Lawsuit was objectively baseless. App. 48a-60a.
Thus, the district court concluded that Petitioners had
proven that, objectively, the State Lawsuit was a “sham.”
Turning to the question of Respondents’ subjective
intent, however, the district court found that Petitioners’
evidence of the purpose of PSBA’s and its Board in
filing, and PSBA’s manner in prosecuting, the State
Lawsuit, was insufficient to raise a triable issue of
material fact on whether the State Lawsuit was
subjectively baseless—which that court defined as
“whether defendants subjectively intended to prevail
on the merits.” App. 65a. Accordingly, the district
to preserve on appeal. Brief of Appellants, Document: 003113111762,
p. 39, n.3.
3

The district court also denied Respondents’ motion to strike
Petitioners’ description of the State Lawsuit as a “SLAPP” suit,
the acronym for “strategic litigation against public participation,”
i.e., a frivolous lawsuit intended to chill the defendants’ protected
speech and punish them with the litigation process. App. 89a-91a.

15
court entered summary judgment in Respondents’
favor solely on this basis.4
E. The Third Circuit Appeal
On appeal, the Third Circuit, like the district court,
accepted that Petitioners’ evidence was sufficient to
make out all the traditional elements of a First
Amendment claim under § 1983. Again, however, like
the district court, the Third Circuit viewed this dispute as “dueling claims to Noerr-Pennington immunity”
(App. 5a), and erected an additional hurdle to the
vindication of Petitioners’ First Amendment rights by
affording so-called “Noerr-Pennington” immunity to
the state actors themselves.
After surveying the development of Noerr-Pennington
in the anti-trust arena, and the expansion of the
concept of petitioning immunity to other areas of the
law, the Third Circuit, like the district court, viewed
its Mariana decision as dispositive of the issue of
whether state actors may lay claim to “Noerr-Pennington”
immunity. This, despite the fact that neither that case,
nor any of the other cases cited by the Third Circuit
arose in the context of a First-Amendment retaliation
action—much less one where the state actors’ weapon
of choice was an objectively-baseless lawsuit targeting
constitutionally-protected speech and activities. The
Third Circuit further recognized the existence of a
split with the Fifth Circuit, which “found it axiomatic
4

The district court, relying primarily on cases evaluating the
“sham” exception in patent cases, held that Petitioners were
required to prove the “sham” exception to Noerr-Pennington
immunity by clear and convincing evidence, rather than the
preponderance of the evidence standard that this Court has held
applies to civil rights claims. As explained infra, the Third Circuit
sustained Petitioners’ assignment of error on this point.

16
that ‘Noerr-Pennington protection does not apply to
the government, of course, since it is impossible for the
government to petition itself within the meaning of the
first amendment [sic].’” App. 15a (quoting Video Int’l
Prod., Inc. v. Warner-Amex Cable Commc’ns., Inc., 858
F.2d 1075, 1086 (5th Cir. 1988).
Having engrafted a new burden onto the traditional
three-step test for establishing a First Amendment
retaliation claim, the Third Circuit then proceeded to
articulate and apply a “sham” exception—the “sham
litigation must constitute the pursuit of claims so
baseless that no reasonable litigant could realistically
expect to secure favorable relief.” App 13a. The Third
Circuit’s “sham” exception, nominally, had an “objective” and a “subjective” component.
The court “accept[ed] the district court’s conclusion
that PSBA’s State Suit is objectively baseless, as the
First Amendment protected all of [Petitioners’] alleged
activities.” App. 25a. Turning to the subjective component of the test, the court properly found that the
District Court erred in requiring Petitioners to meet a
“clear and convincing” standard to show that Respondents’ retaliatory lawsuit was a sham. The imposition of
a heightened burden of proof in a civil rights case, the
Third Circuit wrote, “‘lacks any common-law pedigree
and alters the cause of action itself in a way that
undermines the very purpose of § 1983.’” App. 23a
(quoting Crawford-El v. Britton, 523 U.S. 574, 595
(1998)).
Nonetheless, the Third Circuit interpreted NoerrPennington to frustrate Petitioners’ First Amendment
retaliation claim, despite acknowledging that Respondents’ express goal was to halt Petitioners’ petitioning
activity—and even while acknowledging that the
evidence that Respondents filed their suit to intimidate

17
Petitioners into giving up their speech and petitioning
is ubiquitous:
Indeed, PSBA did sue Campbell to get him
to stop his RTKL-related conduct and PSBA
never attempted to disguise or deny that
objective. . . . [T]he record indicates that
PSBA wanted Campbell to stop overwhelming
its members with RTKL requests and that it
filed the State Suit in hopes of accomplishing
that goal.
App. 28a-29a. Yet, according to the Third Circuit, such
admitted retaliatory animus and censorial intent,
coupled with an objectively frivolous lawsuit targeting
First-Amendment protected speech and petitioning,
was insufficient to remove the roadblock of Respondents’
own “Noerr-Pennington” immunity from civil rights
liability.
The Third Circuit held that such evidence was
insufficient to create a triable issue of fact on the
“subjective” sham element, which it defined as PSBA’s:
(1) indifference to the outcome of the suit, (2) insufficient potential recovery to justify bringing the State
Suit, or (3) that PSRB “decided to sue primarily for
the benefit of collateral injuries inflicted through the
use of legal process.” App. 26a. As that court wrote:
“The fact that PSBA readily accused Campbell of
defamation, that it sought to terminate his activities,
and that it celebrated its progress in achieving that
goal simply fails to satisfy the subjective prong, even
by a preponderance of the evidence.” App. 29a-30a. On
that basis, the Third Circuit affirmed the district court
grant of summary judgment in Respondents’ favor
despite finding ample evidence that the frivolous State
Lawsuit was filed by state actors with the express

18
intention of retaliating against, and censoring, Petitioners’ protected speech and petitioning.
REASONS FOR GRANTING THE PETITION
I. PROTECTING FIRST AMENDMENT RIGHTS
IS A MATTER OF PARAMOUNT IMPORTANCE
This case is about those most precious of constitutional freedoms—the rights of citizens to petition
government and to engage in political speech on issues
of public importance, and the need for untrammeled
access to judicial relief when state actors retaliate
against citizens for their exercise of these rights.
The First Amendment embodies “a profound national
commitment to the principle that debate on public
issues should be uninhibited, robust, and wide-open,
and that it may well include vehement, caustic, and
sometimes unpleasantly sharp attacks on government
and public officials.” New York Times Co. v. Sullivan,
376 U.S. 254, 270 (1964). A long line of this Court’s
jurisprudence emphasizes “the paramount public interest in a free flow of information to the people concerning
public officials.” Garrison v. Louisiana, 379 U.S. 64, 77
(1964).
The First Amendment stands as a bulwark protecting the citizenry’s ability to evaluate and challenge the
government—both by seeking access to information
about how the government functions, and in debating
such issues. Accordingly, the First Amendment
“prohibit[s] government from limiting the stock of
information from which members of the public
may draw.” First Nat’l Bank v. Bellotti, 435 U.S. 765,
783 (1978) (of “highest importance” are the aims of
“preventing corruption and sustaining the active alert
responsibility of the individual citizen in a democracy
for the wise conduct of government”).

19
In light of these constitutional imperatives and their
centrality to the citizenry’s ability to self-govern, “the
law is settled that as a general matter the First
Amendment prohibits government officials from subjecting an individual to retaliatory actions . . . for
speaking out.” Hartman, 547 U.S. at 256. “Official
reprisal for protected speech offends the Constitution
[because] it threatens to inhibit exercise of the
protected right.” Id.
Thus, the ability to seek redress under 42 U.S.C.
§ 1983 when such “retaliatory actions” occur serves
as both an important check on government abuse, and
an opportunity—often the only one—for citizens to
vindicate their precious, yet fragile, constitutional
rights. See, e.g., Robertson v. Wegmann, 436 U.S. 584,
590–91 (1978) (Section 1983 is designed to compensate
those injured by deprivation of federal rights and to
prevent abuses of power by those acting under color of
state law). The decision below severely limits the effectiveness of this check, all but barring a plaintiff from
succeeding on a claim for retaliation when government
censorship comes in the form of an objectively baseless
civil lawsuit.
Petitioners were the targets of a SLAPP suit brought
by state actors who wished to keep their use of taxpayer
dollars out of the public eye. When Petitioners began
seeking financial information regarding PSBA through
RTKL requests of its public school district members,
and lobbying against the public funding of PSBA,
Respondents took those tax dollars and used them to
prosecute a frivolous civil action against them. The
State Lawsuit had nothing to do with obtaining an
adjudication of a legitimate, legally cognizable dispute
between PSBA and Petitioners. Indeed, the courts
below had no hesitation in concluding that PSBA’s

20
claims against petitioners plainly are barred by the
First Amendment and Petitioners’ own petitioning
immunity. Nor did those courts disagree that the
Respondents brought the State Lawsuit to retaliate
against Petitioners for their constitutionally privileged
speech and activities and to chill Petitioners—both
now and in the future—from requesting government
records and action and from engaging in political
speech critical of PSBA.5 But because Respondents
testified that they hoped to succeed on the merits of
the frivolous State Lawsuit, both the district court and
the Third Circuit foreclosed relief to Petitioners for
what is otherwise a clear-cut case of prohibited First
Amendment retaliation.
Petitioners submit that the enforceability of their
core First Amendment rights through the Civil Rights
laws cannot be made to depend upon the choice of the
weapon that the state actor Respondents elected to use
as their cudgel to retaliate against them. Yet, that is
what the Third Circuit in effect has done, and in light
of the importance of the First Amendment interests
that are at stake, the writ should issue in order to
review and correct the Third Circuit’s erroneous decision.
II. THE THIRD CIRCUIT’S DECISION IS WRONG
The Third Circuit framed this dispute as “dueling
claims to Noerr-Pennington immunity.” But that is not
a fair characterization of the stakes involved, and that
5

Indeed, despite demand—and being told by two federal courts
that the State Lawsuit is objectively baseless, i.e. frivolous—
PSBA refuses to dismiss it, thereby tacitly threatening to reactivate it should Petitioners make any further RTKL requests, or
engage in further political commentary that PSBA disapproves
of. See Cumberland County, PA, Case #2017-07303 Docket, https://
onbaseweb.ccpa.net/psi/v/detail/Case/181001 (last visited March
12, 2021).

21
court’s creation of a false parity led it to a manifestly
unjust result that leaves Petitioners unprotected from
Respondents’ objectively frivolous retaliatory lawsuit.
If any petitioning immunity is to be afforded to state
actors, it necessarily must yield to the citizens’ right to
petition and speak freely on matters of public concern
under First Amendment. Any other conclusion—
including the Third Circuit’s holding below—will
create a breach in the wall of the First Amendment’s
protections, allowing overt acts of First Amendment
retaliation to go unchecked.
A. In Every Context Where It Has Been
Recognized, this Court Has Imposed Limits
on Petitioning Immunity to Prevent Abuse
The Noerr-Pennington doctrine originally allowed
competitors to lobby collectively for or against government action without fear of statutory antitrust
liability because “[t]he right of petition is one of the
freedoms protected by the Bill of Rights, and we
cannot . . . lightly impute to Congress an intent to
invade these freedoms.” Eastern Railroad Presidents
Conference v. Noerr Motor Freight, Inc., 365 U.S. 127,
138 (1961); see also Mine Workers v. Pennington,
381 U.S. 657, 670 (1965). This Court later extended
immunity to situations where groups “use . . . courts
to advocate their causes and points of view respecting
resolution of their business and economic interests
vis-a-vis their competitors.” California Motor Transport
Co. v. Trucking Unlimited, 404 U.S. 508, 511 (1972)
(emphasis added).
This Court has drawn upon Noerr-Pennington’s
First Amendment underpinnings to recognize Petitioning
Clause immunity from federal liability for “genuine”
petitioning by private parties in other contexts, specifically liability under the National Labor Relations Act.

22
See Bill Johnson’s Rests. v. NLRB, 461 U.S. 731, 74344 (1983); BE&K Constr. Co. v. NLRB, 536 U.S. 516,
524-27 (2002) (“BE&K”). This Court has further
extended the concept of First Amendment petitioning
immunity to preclude state tort claims. Thus, in NAACP
v. Claiborne Hardware Co., 458 U.S. 886 (1982), this
Court applied Noerr-Pennington’s rationale to defeat
claims of civil conspiracy and malicious interference
with business by White merchants whose businesses
were the subject of a boycott organized by the NAACP.
In every context where this Court has recognized
such immunity, it has taken care to articulate contextspecific exceptions needed to prevent abuse. While
Noerr-Pennington immunity has been extended to
lawsuits, it has never protected “illegal and reprehensible practices which may corrupt the . . . judicial
process.” California Motor Transport, 404 U.S. at 513.
So, too, petitioning immunity in other areas of the law
has context-based limitations. Thus, for example, “it is
an enjoinable unfair labor practice to prosecute a
baseless lawsuit with the intent of retaliating against
an employee for the exercise of rights protected by § 7
of the NLRA.” Bill Johnson’s Rests., 461 U.S. at 74344 (“[S]ince sham litigation by definition does not
involve a bona fide grievance, it does not come within
the first amendment right to petition.”)
Accordingly, while “genuine” petitioning has been
held to be immune from liability, “illegal,” “reprehensible,” or “sham” petitioning has never been protected
in any setting. PREI, 508 U.S. at 60-61. In BE&K, this
Court described its holding in PREI this way: “Instead,
in cases like Bill Johnson’s and Professional Real
Estate Investors, our holdings limited regulation to
suits that were both objectively baseless and subjectively motivated by an unlawful purpose.” BE&K, 536

23
U.S. at 531 (original emphasis). And, of course, PREI
sets forth a menu of ways in which a given petition
may be found to be subjectively baseless, meaning that
it is an effort to “use the governmental process—as
opposed to the outcome of that process—as [a]
weapon.” PREI, 508 U.S. at 60-61 (original emphasis).
B. The Circuits Are Split on Whether and
How to Allow State Actors to Claim NoerrPennington and/or Petition Clause Immunity
This Court has never held that Noerr-Pennington/
petitioning immunity may be invoked by state actors.
Moreover, until now, no court has ever held that
petitioning immunity may be invoked to insulate state
actors from liability for First Amendment retaliation.
Yet that is exactly what the Third Circuit’s ruling
below has sanctioned and protected.
To be sure, some courts of appeals have extended
“Noerr-Pennington” immunity to state actors, but
never where, as here, the motivation for the challenged
petitioning was blatant First Amendment retaliation.
For instance, government actors have been afforded
petitioning immunity when they participate in regulatory proceedings designed to ensure public safety and
health in land development, and in the operation of
convalescent care facilities. See, e.g., Herr v. Pequea
Twp., 274 F.3d 109, 120 (3d Cir. 2001); Brownsville
Golden Age Nursing Home, Inc. v. Wells, 839 F.2d 155,
159-60 (3d Cir. 1988). Noerr-Pennington has also been
found to protect a state’s ability to petition the courts
to recover damages on behalf of the state and its
citizens “as a result of the unlawful and concerted
actions” of the tobacco industry defendants. Mariana,
338 F.3d at 198-200 (Noerr-Pennington doctrine applied
to state officials acting in parens patriae capacity for
their participating in tobacco industry settlement that

24
created an otherwise-unlawful output cartel). And the
Ninth Circuit has extended Noerr-Pennington immunity
to state actors when their petitioning activity was
brought in a representative capacity. See, e.g., Manistee
Town Center v. City of Glendale, 227 F.3d 1090, 1093–
94 (9th Cir. 2000) (holding that a city’s lobbying of a
county government to frustrate land development
opposed by city residents was protected by the NoerrPennington doctrine as an exercise of “representative
democracy”); Sanghvi v. City of Claremont, 328 F.3d
532, 542–43 (9th Cir. 2003) (same).
The Fifth Circuit, in contrast, has articulated the
view that, axiomatically, “Noerr-Pennington protection
does not apply to the government, of course, since it is
impossible for the government to petition itself within
the meaning of the first amendment [sic].” Video Int’l
Prod., Inc., 858 F.2d at 1084. Moreover, the very notion
that “Noerr-Pennington”/petitioning immunity—with
its genesis in citizens’ First Amendment rights—should
be available to state actors has a shaky analytical
provenance. Notably, it was forcefully refuted by the
dissent in Pequea, 274 F.3d. at 129-131 (Garth, J.
dissenting). There, the dissent underscored that “NoerrPennington immunity applies to private parties-not
governmental entities-seeking redress from the government.” Id. at 129 (original emphasis). The dissent
in Pequea explained that Noerr-Pennington cannot
immunize state actors that act with intent to impinge
on a citizen’s fundamental rights, because the government’s right to petition is not in parity with the Bill of
Rights:
It is axiomatic that government entities,
unlike private citizens, are limited by the
Constitution from certain conduct in ways
that individuals are not . . . Therefore,

25
providing a private citizen an absolute per se
immunity arising from his or her 1st
Amendment right to petition is far different
than providing such an absolute constitutional right to a governmental entity.
Id. at 130 n5.6
C. The Third Circuit’s Ruling Improperly
Allows State Actors to Use NoerrPennington’s Shield as a Retaliatory
Sword
What is at stake here is whether state actors can
retaliate against a citizen’s First Amendment rights to
seek information concerning government and engage
in criticism on matters of public concern by targeting
that citizen with civil proceedings devoid of objective
legal merit filed with the obvious intention of censoring speech and stifling petitioning, and then hide
behind their own asserted petitioning right to avoid
liability for such retaliation. This is the first time a
court of appeals has held that the Petition Clause
immunizes state actors from § 1983 liability for a
concededly retaliatory lawsuit against a citizen for
that citizen’s political speech and petitioning activities.

6

Further, the panel in Mariana, the circuit precedent on which
the Third Circuit relied below, expressed skepticism over the
government’s ability to invoke Noerr-Pennington, suggesting that
state actor immunity might more properly be considered under
Parker v. Brown, 317 U.S. 341 (1943)’s state-action immunity
doctrine. But the court in Mariana viewed itself bound by a prior
panel decision in A.D. Bedell Wholesale Co. v. Philip Morris Inc.,
263 F.3d 239, 255 (3d Cir. 2001), that held that Noerr-Pennington
applied to the actions of state actors for the same tobacco settlement.

26
Petitioners adduced evidence sufficient to prove that
Respondents filed a tort suit asserting frivolous claims
for defamation, abuse of process, and “tortious interference” with PSBA’s “contractual relations” with its
public school district members, because of and targeting Petitioners’ First Amendment protected speech
and petitioning activities. And it is self-evident that
Respondents filed their SLAPP suit with the intention
of forcing Petitioners to abandon their advocacy and
criticism of PSBA—and in the words of the Third
Circuit “celebrated [their] progress in achieving that
goal” through the filing and subsequent amendment
of the State Lawsuit. App. 29a. In other words,
Petitioners established that the State Lawsuit was
objectively baseless, and was filed with an unlawful
and unconstitutional motive.
That is the only proof that should be required to
vitiate a state actor’s claim to Petition Clause immunity.
State actors normally face liability for retaliation
where the plaintiff can prove: “(1) [their own] constitutionally protected conduct, (2) retaliatory action [by
a state actor] sufficient to deter a person of ordinary
firmness from exercising his constitutional rights, and
(3) a causal link between the constitutionally protected
conduct and the retaliatory action.” Thomas v. Indep.
Twp., 463 F.3d 285, 296 (3d Cir. 2006). Petitioning
Clause immunity has always been limited—and contextbased. Here, the context is First Amendment retaliation,
and the “unlawful purpose” is the goal of suppressing
First Amendment-protected expression. “The law is
clearly established” that state actors may not use
their authority to retaliate for the exercise of First
Amendment rights. Starnes v. Butler Cnty. Court of
Common Pleas, 971 F.3d 416, 429 (3d Cir., 2020).
There is no countervailing interest that counsels

27
greater protection for a state actor who has been
shown to be motivated by a desire to censor.
The fact that a state actor chooses a frivolous
lawsuit, as opposed to other means, to silence citizens
should make no difference at all. If anything, it makes
matters worse. As this Court emphasized in Borough
of Duryea, Pa. v. Guarnieri, 564 U.S. 379, 390 (2011),
“[w]hen a petition takes the form of a lawsuit against
the government employer, it may be particularly disruptive. Unlike speech of other sorts, a lawsuit
demands a response. Mounting a defense to even
frivolous claims may consume the time and resources
of the government employer.” If a frivolous lawsuit by
an individual is unduly disruptive to an employer with
the resources of a government, the pain it inflicts when
the roles are reversed is exponentially greater. And
when the state actor admits its retaliatory intent and
purpose, that should end the inquiry (or, at the very
least, foreclose summary judgment). To hold otherwise
is to frustrate the purpose of the First Amendment—
and gives state actors carte blanche to retaliate
against their critics through the device of a frivolous
SLAPP suit.
The Third Circuit here held that Respondents
were entitled to summary judgment—and to continue
“SLAPPing” Petitioners with the State Lawsuit—
because, in their view, the state tort action did not fit
the “subjective” requirements of a “sham” lawsuit
because Respondents proffered evidence that they
desired to prevail on the merits of the State Lawsuit,
however baseless. But correctly considered, this is
beside the point. A “pure heart, empty head” defense
should have no place in permitting state actors to
evade liability for violating citizen’s civil rights
when the traditional elements of a First Amendment

28
retaliation claim otherwise are present. Censorial
intent is the “unlawful purpose” that matters here.
Just as “this Court has recognized that the Petition
Clause does not protect ‘objectively baseless’ litigation
that seeks to ‘interfere directly with the business
relationships of a competitor’” in the anti-trust
context, Borough of Duryea, 564 U.S. at 390 (original
emphasis) (quoting PREI, 508 U.S. at 49, 60-61,
additional citations omitted), so too, there should be no
protection in the civil rights context for state actors
who file objectively baseless litigation that seeks to
“interfere directly” with the First Amendment activities of their citizen “competitors” in the marketplace of
ideas.
The Third Circuit’s decision immunizing Respondents
from liability under § 1983 is inconsistent with this
Court’s application of First Amendment/NoerrPennington petitioning immunity and with the wellestablished precedent prohibiting state actors from
using their authority to penalize protected expression
and petitioning. State actors who use baseless civil
suits to punish and chill First Amendment-protected
activity deserve no protection. Their retaliatory and
otherwise “illegal” motive serves to vitiate any claimed
immunity—and should be more than sufficient to
satisfy any “subjective” sham component of any
petitioning immunity that this Court might recognize
for state actors in this context.
Unless this Court grants this petition, the Third
Circuit’s decision will serve as a roadmap for future
state actors that seek to silence their private citizen
opponents through objectively frivolous lawsuits, and
who will need only state that they “hoped” to succeed
on the merits to avoid constitutional tort liability for
trampling their critics’ First Amendment rights.

29
III. THE
QUESTIONS
PRESENTED
ARE
EXCEPTIONALLY IMPORTANT, CLEARLY
FRAMED, AND THIS CASE IS AN
EXCELLENT VEHICLE FOR RESOLVING
THE QUESTIONS PRESENTED
The issues presented here are of fundamental
constitutional importance. The Third Circuit has
taken the concept of First Amendment petitioning
immunity and applied it to state actors in a way that
turns that immunity into an instrument for defeating
the First Amendment itself. Such a result is anathema
to the Constitution, the Civil Rights laws, and the
jurisprudence of this Court. If permitted to take root,
this ruling effectively will provide a “Get Out of Jail
Free” card to state actors who will now know that the
“safe” way to punish a citizen’s privileged speech and
petitioning is to file a retaliatory SLAPP suit and then
claim that they “hoped” somehow to prevail on the
merits—as well as to claim, where qualified immunity
is at issue, that the unconstitutionality of such a
method of retaliation was not “clearly established.”
The issues are clearly presented here. Petitioners
challenged Respondents’ invocation of “NoerrPennington” petitioning immunity in the district
court, and expressly preserved these issues through
the Third Circuit. The Third Circuit dedicated the
bulk of its opinion to exploring, addressing, and
adjudicating the core issues presented by this Petition.
This case is also an excellent vehicle for this Court
to adjudicate the issues. Because summary judgment
was granted against Petitioners, the standard of
review on all aspects of this appeal is de novo, and all
factual inferences are drawn in Petitioners’ favor.
Petitioners adduced sufficient evidence of all three
elements of a First Amendment retaliation claim:

30
Respondents are state actors, who targeted Petitioners
with the objectively baseless State Lawsuit in specific
retaliation for Petitioners’ RTKL requests and privileged political speech. And there can be no disputing
that being hit with an onerous SLAPP suit is enough
to chill a person of ordinary firmness from continuing
to exercise his constitutional rights.
Thus, this case cleanly presents the fundamental
question for this Court—whether a citizen who has
made out a First Amendment retaliation claim against
state actors can be denied a remedy under § 1983
because his attackers are entitled to sidestep liability
by invoking their own supposed First Amendment
petitioning immunity.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
JACOB C. COHN
Counsel of Record
ILAN ROSENBERG
GORDON & REES
1717 Arch Street
Philadelphia, PA 19103
(215) 717-4004
jcohn@grsm.com
Counsel for Petitioners
March 15, 2021

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
[Filed October 16, 2020]
————
No. 18-3112
————
SIMON CAMPBELL; PENNSYLVANIANS
FOR UNION REFORM,
Appellants
v.
PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, solely in his individual
capacity; DAVID HUTCHINSON; solely in his
individual capacity; OTTO W. VOIT, III, solely
in his individual capacity; KATHY SWOPE,
solely in her individual capacity; LAWRENCE
FEINBERG, solely in his individual capacity;
ERIC WOLFGANG, solely in his individual capacity;
DANIEL O’KEEFE, solely in his individual capacity;
DARRYL SCHAEFER, solely in his individual capacity;
THOMAS KEREK, solely in his individual capacity;
and LYNN FOLTZ, solely in her individual capacity,
————
SUR PETITION FOR REHEARING
(District Court No. 2-18-cv-00892)
————

2a
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, PHIPPS, and FUENTES1 Circuit Judges
————
The petition for rehearing filed by Appellants in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/ Theodore A. McKee
Circuit Judge
Dated: October 16, 2020
Tmm/cc: All Counsel of Record

1

Judge Fuentes vote is limited to panel rehearing only.

3a
APPENDIX B
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 18-3112
————
SIMON CAMPBELL; PENNSYLVANIANS
FOR UNION REFORM,
v.

Appellants

PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, solely in his individual
capacity; DAVID HUTCHINSON; solely in his
individual capacity; OTTO W. VOIT, III, solely
in his individual capacity; KATHY SWOPE,
solely in her individual capacity; LAWRENCE
FEINBERG, solely in his individual capacity;
ERIC WOLFGANG, solely in his individual capacity;
DANIEL O’KEEFE, solely in his individual capacity;
DARRYL SCHAEFER, solely in his individual capacity;
THOMAS KEREK, solely in his individual capacity;
and LYNN FOLTZ, solely in her individual capacity,
————
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(District Court No. 2-18-cv-00892)
District Judge: Honorable Jan. E. Dubois
————
Submitted Under Third Circuit L.A.R. 34.1(a)
May 20, 2019
————

4a
Before: MCKEE, SHWARTZ, and FUENTES,
Circuit Judges.
(Filed: August 27, 2020)
————
Jacob C. Cohn
Eric C. Rosenberg
Ilan Rosenberg
Joshua Slavitt
Gordon Rees Scully Mansukhani
Three Logan Square
1717 Arch Street, Suite 610
Philadelphia, PA 19103
Mary Catherine Roper
American Civil Liberties Union of Pennsylvania
P.O. Box 60173
Philadelphia, PA 19102
Counsel for Appellants
David W. Brown
Craig D. Ginsburg
Michael I. Levin
Levin Legal Group
1800 Byberry Road
1301 Masons Mill Business Park
Huntingdon Valley, PA 19006
Counsel for Appellees

5a
OPINION
MCKEE, Circuit Judge.
In this dispute over dueling claims to NoerrPennington immunity, Simon Campbell and his organization, Pennsylvanians for Union Reform (collectively,
“Campbell”), allege that the Pennsylvania School
Boards Association and its Board Members (collectively, “PSBA”) violated Campbell’s civil rights by
suing him in state court (the “State Suit”). That complaint asserted various tort claims against Campbell
based on his persistent use of Pennsylvania’s Right
to Know laws. According to PSBA’s State Suit allegations, Campbell’s relentless pursuit of information
about PSBA, and his related conduct, was an abuse of
the Right to Know statute intended solely to harass
PSBA. At that time, Campbell defended against the
State Suit by arguing his conduct was constitutionally
protected under the Noerr-Pennington doctrine.
Now Campbell sues, seeking damages under 42
U.S.C. § 1983, alleging that the State Suit was intended
as retaliation. PSBA defends against Campbell’s civil
rights claims by itself invoking Noerr-Pennington. It
argues the First Amendment shields its right to sue in
state court. The District Court agreed with PSBA and
granted its motion for summary judgment.
We conclude that the District Court erred in
requiring a heighted burden of proof on PSBA’s
motives in bringing its tort claims in state court. However, because we find that Campbell’s civil rights
claim would fail under any standard of proof, we agree

6a
that PSBA is entitled to judgment as a matter of law
and will therefore affirm.1
I.
Simon Campbell is an active and persistent user of
the Pennsylvania Right to Know Law (“RTKL”), which
permits citizens to obtain certain information from the
state government and its agencies.2 In recent years,
he has submitted hundreds of requests to public school
agencies across the Commonwealth. Many of the
recipients are members of the PSBA. The PSBA is a
non-profit association created by Pennsylvania’s
school districts “to further the interests of public
education and to provide assistance to public school
entities.”3 A majority of school boards in the state are
members, and the organization’s roots stretch back to
the 19th century.4
Campbell founded Pennsylvanians for Union Reform
(“PFUR”) in 2013 to “eliminate compulsory unionism
in Pennsylvania while promoting transparency and
efficiency in government for taxpayers.”5 In pursuing
those goals, PFUR has energetically utilized the Commonwealth’s RTKL to obtain records from PSBA’s
constituent school districts and other government

1

“We may affirm a district court for any reason supported by
the record.” Brightwell v. Lehman, 637 F.3d 187, 191 (3d Cir.
2011) (citation omitted).
2

65 Pa. Cons. Stat. §§ 67.101 et seq. (2008).

3

App. at 1576.

4

Id. at 1589.

5

Id. at 1587.

7a
entities. In the process, it has litigated cases that have
expanded the reach of that law.6
In March 2017, PFUR turned its attention to the
PSBA by sending RTKL requests to “most, if not all,
public school agencies” in Pennsylvania.7 These requests
sought contact information for district employees
and union representatives. PSBA’s attorney, Emily
Leader, responded by advising member school districts that they were required to release publicly
available information, but they did not have to provide
PFUR with private data such as personal email
addresses.8 PSBA later advised school districts that,
although they were legally required to collate the
requested information, they could simply make the
results “available for pickup at the district offices,”
rather than forwarding it to PFUR. It also presciently
informed its members that this relatively uncooperative approach might lead to litigation.9
When Campbell received copies of the PSBA’s legal
guidance, he established a page on the PFUR website
entitled “PSBA Horror” with a mocking photograph of
PSBA Executive Director Nathan Mains. The photograph included a word bubble which read: “Taxpayers,
thanks for the $226,000 and the public pension! Now
* * * * off, and drive to the school district if you want
public records. And don't forget your check book.”10
6

See, e.g., Reese v. Pennsylvanians for Union Reform, 173 A.3d
1143 (Pa. 2017); Dep’t of Human Servs. v. Pennsylvanians for
Union Reform, Inc., 154 A.3d 431 (Pa. Commw. Ct. 2017) (en
banc).
7

App. at 1632.

8

Id. at 94-99.

9

Id. at 109-113.

10

Id. at 1546.

8a
Campbell had also requested PSBA’s tax returns.
When Michael Levin, PSBA’s outside counsel, provided a link to those returns, Campbell caustically told
Levin to “stay out of my business whenever I’m
approaching one of your public entity clients.” Levin
responded by threatening to sue Campbell for
defamation.11
Campbell soon poured gasoline on this burgeoning
feud by submitting a second wave of RTKL requests
in May. Approximately 600 school boards across
Pennsylvania received an identical 17-page request
asking their respective districts to provide 27 different
types of documentation regarding their relationship
with PSBA.12 More than 240 of the school districts
turned to PSBA for assistance in assembling that
information. This overwhelming stream of requests
led PSBA to adopt a policy of providing what it viewed
as the minimum legally required response.13 Levin
also sent Campbell a demand that he take down the
picture of Executive Director Mains. Campbell complied, but replaced it with an illustration of PSBA
alongside a message similar to the original text.14
Campbell also established a new website with his
personal funds, www.psbahorror.com. He filled it with
his anti-PSBA messaging through writing and videos
he posted online.15
Nathan Mains eventually told PSBA’s legal team
that he wanted to sue Campbell for damaging PSBA’s
11

Id. at 1399-1401.

12

Id. at 124-26.

13

Id. at 1574, 1558.

14

Id. at 1403.

15

Id. at 1418, 1684.

9a
reputation. In June 2017, the PSBA Board voted
unanimously to sue Campbell and the resulting state
tort action was filed the following month alleging
defamation, tortious interference with contractual
relations, and abuse of process.17
16

PSBA’s then-president testified that the State Suit
was filed to “stop” PFUR from “harassing districts
with . . . unreasonable request[s] [and] to stop defaming members of the organization.”18 Mains announced
the suit in an email to all PSBA members.19 Later that
year, Campbell and PFUR removed all of the challenged content from their websites and stopped sending RTKL requests.20
In February 2018, as the State Suit proceeded,
Campbell filed this action against PSBA and ten
members of its board. His complaint alleges that
PSBA’s State Suit was motivated by an improper
desire to retaliate against him for proper RTKL
requests in violation of his First Amendment rights.
Campbell seeks injunctive relief, as well as compensatory and punitive damages.21
PSBA moved for summary judgment. Its motion
advanced multiple arguments, but we must consider
only the claim that Noerr-Pennington doctrine shields
PSBA from liability for filing the State Suit. The
District Court agreed with this position and held that
both Campbell’s RTKL requests and PSBA’s subse16

Id. at 1684.

17

Id. at 780-831.

18

Id. at 1825.

19

Id. at 144.

20

Id. at 1984.

21

Id. at 56.

10a
quent state tort claims were protected under NoerrPennington.22 The Court found that PSBA’s State Suit
claims were objectively baseless. As we discuss later,
this satisfied the first requirement for lifting NoerrPennington immunity. However, the District Court
held that there was not clear and convincing evidence
that the suit was “subjectively baseless.”23 Accordingly, the Court granted PSBA’s motion for summary
judgment and dismissed Campbell’s civil rights claim
without reaching the remaining contentions. This
appeal followed.24
II.
We review this summary judgment decision de novo,
mindful of the special care called for by these issues
of “free expression.”25 As we noted at the outset, both
sides seek shelter under Noerr-Pennington immunity.
That doctrine shields constitutionally protected conduct from civil liability, absent certain exceptions.26
Specifically, the doctrine’s protective umbrella does
not extend to “sham” suits, which seek to take
advantage “of governmental process—as opposed to
the outcome of that process—as an anticompetitive
22

Campbell v. Penn. Sch. Bds. Assoc., 336 F. Supp. 3d 482, 494
(E.D. Pa. 2018).
23

Id. at 504.

24

Because this is a civil rights case arising under the United
States Constitution, the district court had jurisdiction under 28
U.S.C. § 1331 and 28 U.S.C. § 1343(a). On appeal, we have
jurisdiction under 28 U.S.C. § 1291.
25

Bose Corp. v. Consumers Union of U.S., Inc., 466 U.S. 485,
499 (1984) (quoting N.Y. Times Co. v. Sullivan, 376 U.S. 254, 285
(1964)).
26

Prof'l Real Estate Invs., Inc. v. Columbia Pictures Indus.
(PREI), 508 U.S. 49, 56 (1993).

11a
weapon.” The parties’ competing claims to NoerrPennington protection can more easily be resolved if
we first examine the origins and history of the
doctrine.
27

A) Origins of Noerr-Pennington
“The Noerr–Pennington doctrine takes its name
from a pair of Supreme Court cases that placed a First
Amendment limitation on the reach of the Sherman
Act.”28 In Noerr,29 railroad companies, fearful of the
growing power of the trucking industry, sought to use
their considerable resources to encourage adoption of
laws and regulations that would encumber truckers.
The truckers responded by suing the railroad companies for violation of the Sherman and Clayton AntiTrust Acts.30 The case reached the Supreme Court,
which held that the railroads’ First Amendment rights
to petition the government must override statutory
limitations on anticompetitive behavior. The Court
explained: “The right of petition is one of the freedoms
protected by the Bill of Rights, and we cannot, of
course, lightly impute to Congress an intent to invade
these freedoms.”31 The Court soon extended this
protection to efforts to influence executive action in
Pennington.32 There, the Court held that “efforts to
27

Cheminor Drugs, Ltd. v. Ethyl Corp., 168 F.3d 119, 123 (3d
Cir. 1999) (quoting PREI, 508 U.S. at 61 (emphasis in original)).
28

Hanover 3201 Realty, LLC v. Vill. Supermarkets, 806 F.3d
162, 178 (3d Cir. 2015).
29

E.R.R. Presidents Conf. v. Noerr Motor Freight, Inc., 365
U.S. 127 (1961).
30

Id. at 129; see 15 U.S.C. § 1, and 15 U.S.C. § 15, respectively.

31

Noerr, 365 U.S. at 138.

32

United Mine Workers of Am. v. Pennington, 381 U.S. 657
(1965).

12a
influence public officials do not violate the antitrust
laws even though intended to eliminate competition.
Such conduct is not illegal . . .”33 The Court concluded
that efforts to influence government action were protected from liability even if driven by an illicit intent.34
There was, however, one conceivable exception. In
Noerr, Justice Black had observed in dicta that an
ostensible petition which in reality “is a mere sham to
cover what is actually nothing more than an attempt
to interfere directly with the business relationships
of a competitor” would not deserve protection.35
The Court subsequently established a carve-out for
such behavior. Noerr-Pennington protection does not
extend to an objectively “[b]aseless suit [that] conceals
an attempt to interfere directly with a competitor's
business relationships, through the use [of] the
governmental process—as opposed to the outcome
of that process—as an anticompetitive weapon.”36 This
is referred to as the “sham” exception to NoerrPennington immunity.
B) The Sham Exception
“A classic example is the filing of frivolous objections
to the license application of a competitor, with no
expectation of achieving denial of the license but
simply in order to impose expense and delay.”37 The
difficulty, of course, comes in evaluating intent.
33

Id. at 670.

34

Id.

35

Noerr, 365 U.S. at 144.

36

PREI, 508 U.S at 50 (third alteration in original) (emphasis,
internal quotation marks, and citations omitted).
37

City of Columbia v. Omni Outdoor Advert., Inc., 499 U.S.
365, 380 (1991).

13a
We employ a two-part test to determine if the sham
exception applies. First, the suit must be objectively
baseless. “If an objective litigant could conclude that
the suit is reasonably calculated to elicit a favorable
outcome, the suit is immunized under Noerr . . . .”38
Whereas “sham litigation must constitute the pursuit
of claims so baseless that no reasonable litigant could
realistically expect to secure favorable relief.”39 The
Supreme Court analogizes this inquiry to the common
law tort of wrongful civil proceedings, which requires
proof that the defendant (the plaintiff in the underlying action) lacked probable cause to bring that suit.40
Mere ill intent does not suffice: “a showing of malice
alone will neither entitle the wrongful civil proceedings plaintiff to prevail nor permit the factfinder to
infer the absence of probable cause.”41
Thus, if probable cause exists, our inquiry is at an
end. However, the fact that a suit may lack any
objective merit is not itself determinative. We must
then inquire into the plaintiff’s subjective motivations
for bringing suit.42 We take this additional step to ascertain whether the actual motivation is to dragoon the
“governmental process” itself into use as a competitive

38

PREI, 508 U.S. at 60.

39

Id. at 62.

40

Id. at 63 (citing Stewart v. Sonneborn, 98 U.S. 187, 194
(1879)); see also THOMAS M. COOLEY, A TREATISE ON THE LAW OF
TORTS OR THE WRONGS WHICH ARISE INDEPENDENT OF CONTRACT
182 (1879) (“[T]here must be such grounds of belief as would
influence the mind of a reasonable person, and nothing short of
this could justify a serious and formal charge against another.”).
41

PREI, 508 U.S. at 63.

42

Id. at 60-61.

14a
tool. In the economic realm, this often means examining “evidence of the suit’s economic viability.”44 The
difficulty of proving subjective motivation obviously
“places a heavy thumb on the scale” in favor of
granting protection.45 Only if these objective and
subjective tests are satisfied is Noerr-Pennington
protection lost and the suit permitted to proceed.
43

The doctrine has now evolved well beyond its original antitrust46 confines. For instance, it shields constitutionally protected protesters from civil suits.47 It
has also been applied by this Court and other courts of
appeals to bar § 1983 claims by state actors based
upon constitutionally protected conduct.48 That is the
situation here.
C) Noerr-Pennington for State Actors
Nevertheless, Campbell urges a new rule. He suggests that state actors deserve less protection given
their wide resources for combating falsities and special
positions of public trust. He cites Gertz v Robert Welch,

43

499 U.S. at 380 (emphasis omitted).

44

PREI, 508 U.S. at 61 (emphasis in original).

45

Hanover 3201 Realty, LLC, 806 F.3d at 180.

46

See Barnes Found. v. Township of Lower Merion, 242 F.3d
151, 159-60 (3d Cir. 2001) (summarizing the growth of the
doctrine into new fields of law).
47

NAACP v. Claiborne Hardware Co., 458 U.S. 886, 907-08
(1982).
48

See Herr v. Pequea Township, 274 F.3d 109, 116-17 (3d Cir.
2001) (applying this rule, and summarizing similar holding across
different circuits (citing Video Int’l Prod., Inc. v. Warner-Amex
Cable Commc’ns., Inc., 858 F.2d 1075, 1084 (5th Cir. 1988))).

15a
Inc. to support such a rule.49 There, the Supreme Court
limited the reach of its “actual malice” libel standard
to public figures, making it easier for private individuals to seek restitution.50 The Court’s analysis was
influenced by the advantages public officials have in
responding to libelous remarks, and by the “necessary
consequences” of choosing to enter the public arena.51
It is true that in other contexts, restrictions on government speech have been subjected to different
degrees of scrutiny under the First Amendment than
the speech of private citizens.52 That variability is
compounded here because there is some confusion over
Noerr-Pennington’s applicability to state actors. The
Court of Appeals for the Fifth Circuit, for instance,
found it axiomatic that “Noerr-Pennington protection
does not apply to the government, of course, since it is
impossible for the government to petition itself within
the meaning of the first amendment [sic].”53

49

Appellant’s Br. at 31 (citing Gertz v. Robert Welch, Inc.,418
U.S. 323, 344-45 (1974)).
50

Gertz, 418 U.S. at 345.

51

Id. at 344.

52

See, e.g., Pleasant Grove City v. Summum, 555 U.S. 460,
467-68 (2009) (“[I]t is not easy to imagine how government could
function if it lacked this freedom. ‘If every citizen were to have a
right to insist that no one paid by public funds express a view
with which he disagreed, debate over issues of great concern to
the public would be limited to those in the private sector, and the
process of government as we know it radically transformed.’”
(quoting Keller v. State Bar of Cal., 496 U.S. 1, 12–13 (1990)));
Garcetti v. Ceballos, 547 U.S. 410, 424 (2006) (“When a public
employee speaks pursuant to employment responsibilities . . .
there is no relevant analogue to speech by citizens who are not
government employees.”).
53

Video Int’l Prod., Inc., 858 F.2d at 1086.

16a
However, we have already declined to adopt that
view. In Mariana v. Fisher, we stated: “[w]e know of
no Supreme Court or federal appellate case holding
that Noerr-Pennington cannot apply to government
actors . . .”. 54 Indeed, it is difficult to envision how such
a rule would operate. Stripping state actors of
protection would expose them to an unreasonably
increased risk of interference. It would uniformly tilt
the playing field against them in arenas far removed
from the Gertz context. That public figures hold
enhanced capabilities in responding to libel claims was
crucial to the holding there. We are unconvinced that
government defendants seeking Noerr-Pennington
immunity receive similar benefits by virtue of their
position. Moreover, the Supreme Court has been careful to extend rights to state actors in many fields,
especially when they are acting as market participants.55 In some cases, the petitions of state actors will
be “nearly as vital” as those of private individuals,
given the representative role that public institutions
play in democratic life.56 We therefore decline to adopt
Campbell’s suggestion that PSBA is ineligible for
Noerr-Pennington protection as a universal rule.
This does not, however, suggest that that NoerrPennington must necessarily be applied formulaically
across every field of law. Indeed, some courts confine
the doctrine to the antitrust realm, while recognizing
54

338 F.3d 189, 200 (3d Cir. 2003); see also, Herr, 274 F.3d at
119 (predicting the Supreme Court would permit municipal governments to receive Noerr-Pennington protection).
55

See Dep’t. of Revenue of Ky. v. Davis, 553 U.S. 328, 339
(2008) (describing the states freely entering the marketplace as
level participants within the constitutional scheme).
56

Manistee Town Center v. City of Glendale, 227 F.3d 1090,
1093 (9th Cir. 2000).

17a
a broader immunity that arises from the Petition
Clause itself.57
D) Standard of Proof
A different approach outside of antitrust makes
particular sense when we consider the necessary
standard of proof. A standard of proof is more than a
legal barrier. It is “the degree of confidence our society
thinks [a fact finder] should have in the correctness of
factual conclusions for a particular type of adjudication.”58 This standard may be allocated by Congress, or
dictated by the Constitution, but where both are
silent, “we must prescribe one.”59
In In re Wellbutrin XL Antitrust Litigation, we
explained that the Supreme Court has “indicated that
the plaintiff in an antitrust suit has the burden of
proving . . . ‘both the objective and subjective components of a sham’” when applying Noerr-Pennington. 60
We also explained that, in doing so, the Supreme
Court “was silent,” as to whether that burden had to
be satisfied by “clear and convincing evidence, or [by
57

CSMN Invs., LLC v. Cordillera Metro. Dist., 956 F.3d 1276,
1283 (10th Cir. 2020) (“In this circuit, this immunity extends
beyond antitrust situations. But we refer to it as Petition Clause
immunity, reserving the name, NoerrPennington, for antitrust
cases.” (citation omitted)).
58

In re Winship, 397 U.S. 358, 370 (1970) (Harlan, J., concurring); see also id. at 371 (“Because the standard of proof affects
the comparative frequency of . . . erroneous outcomes, the choice
of the standard to be applied in a particular kind of litigation
should, in a rational world, reflect an assessment of the comparative social disutility of each.”).
59
60

Herman & MacLean v. Huddleston, 459 U.S. 375, 389 (1983).

868 F.3d 132, 148 n.18 (3d Cir. 2017) (internal quotation
marks omitted) (quoting PREI, 508 U.S. at 61).

18a
a] preponderance of the evidence.”61 However, since
our analysis in Wellbutrin did not require us to decide
which standard of proof was required to avoid NoerrPennington immunity, we did not answer that question.62 Here, the District Court imposed the higher
standard and required Campbell to prove the subjective component by clear and convincing evidence.
As a general rule, the Supreme Court instructs that
the heightened clear and convincing standard is necessary “where particularly important individual interests or rights are at stake.”63 Nevertheless, “imposition
of even severe civil sanctions that do not implicate
such interests has been permitted after proof
by a preponderance of the evidence.”64 Since NoerrPennington cases will necessarily involve constitutional rights, a clear and convincing standard initially
seems appropriate. Indeed, many courts, including
other circuit courts of appeals, have required that level
of proof in patent disputes involving Noerr-Pennington
immunity.65

61

Id.

62

Id. (“Because our decision in this case does not hinge on the
standard of proof, we leave that question for another day.”).
63

Herman MacLean, 459 U.S. at 389.

64

Id. at 389–90.

65

See, e.g., Tyco Healthcare Grp. LP v. Mut. Pharm. Co., Inc.,
762 F.3d 1338, 1345 (Fed. Cir. 2014) (“[T]he burden [is] on the
patent challenger to prove invalidity by clear and convincing
evidence . . .”); Intell. Ventures I LLC v. Capital One Fin. Corp.,
280 F. Supp. 3d 691, 708 (D. Md. 2017) (finding that the
“exception to Noerr–Pennington immunity is narrow, ‘[g]iven the
presumption of patent validity and the burden on the patent
challenger to prove invalidity by clear and convincing evidence.’”
(alteration in original) (quoting Tyco Healthcare Grp. LP, 762
F.3d at 1343)) aff'd, 937 F.3d 1359 (Fed. Cir. 2019); Teva Pharm.

19a
In the past, the Court of Appeals for the Federal
Circuit has required clear and convincing proof in
patent disputes.66 But patents raise a special set of
concerns. Because of the innovation and commercial
viability that they encourage, courts have afforded
suits to enforce patents a presumption of good faith.67
It naturally follows that a higher standard of proof is
needed to overcome that presumption. The Court of
Appeals for the Ninth Circuit explains, “[t]he road to
the Patent Office is so tortuous and patent litigation is
usually so complex,” that “no less than [c]lear, convincing proof of intentional fraud involving affirmative
dishonesty” would suffice in patent cases.68
This case by contrast, arises in the § 1983 realm, and
it necessarily reflects a different tension. A balance
that makes sense in the patent or antitrust context
holds less weight for civil rights litigants, and viceversa. This is because antitrust disputes must generally strike a balance between First Amendment rights
and statutory restrictions on anticompetitive behavior. Justice Black was unwilling in such scenarios to
USA, Inc. v. Abbott Labs., 580 F. Supp. 2d 345, 362 (D. Del. 2008)
(“To invoke the ‘sham’ exception, a defendant must prove, by clear
and convincing evidence, that a plaintiff's activities were not
really efforts to vindicate its rights in court.”); In re Relafen
Antitrust Litig., 346 F. Supp. 2d 349, 360 (D. Mass. 2004)
(observing that under patent law, “[p]laintiffs must establish the
first, objective prong of the sham definition by clear and convincing evidence.”).
66

See, e.g., Tyco Healthcare Grp. LP, 762 F.3d at 1345; C.R.
Bard, Inc. v. M3 Sys., Inc., 157 F.3d 1340, 1369 (Fed. Cir. 1998);
Carroll Touch, Inc. v. Electro Mech. Sys., Inc., 15 F.3d 1573, 1584
(Fed. Cir. 1993).
67

Handgards, Inc. v. Ethicon, Inc. (Handgards I), 601 F.2d
986, 996 (9th Cir. 1979).
68

Id.

20a
“lightly impute to Congress an intent to invade” the
First Amendment right to petition.69 Here, by contrast,
PSBA and Campbell both seek to vindicate their constitutional right to petition. Thus, we cannot simply
transplant the standard of proof used to balance a
statutory and a constitutional right in order to resolve
this clash of matching constitutional ones. We are
also reluctant to require a heightened standard of
proof here since patent litigation involves a presumption of good faith.70 No such presumption arises here.71
Instead, we have a face-off between two identical
interests. The collision produces “an undeniable
tension.”72 It would be “intolerable [if] one constitutional right should have to be surrendered [or restricted]
in order to assert another.”73
A heightened standard fails to account for those
fundamental constitutional rights, which here are
advanced by both sides. As already noted, the District
Court required Campbell to establish his First Amendment claim here by clear and convincing evidence. The
patent context’s presumption of good faith formed the
backdrop for that decision. The Court’s analysis rested
in large part upon FTC v. AbbVie, Inc., which involved
69

Noerr, 365 U.S. at 138.

70

Handgards I, 601 F.2d at 996.

71

The Court of Appeals for the Second Circuit found such logic
persuasive even within the antitrust realm, because NoerrPennington itself represents a defensive mechanism for defendants: “by requiring a plaintiff to prove that a defendant's conduct
was a sham, the Supreme Court has already struck a rough balance between the competing First Amendment and antitrust
interests.” Litton Sys., Inc. v. Am. Tel. & Tel. Co., 700 F.2d 785,
813-14 (2d Cir. 1983).
72

Simmons v. United States, 390 U.S. 377, 394 (1968).

73

Id.

21a
an FTC action against a series of sham patent
lawsuits.74 The district court in AbbVie relied heavily
on the fact that the Court of Appeals for the Federal
Circuit has adopted a clear and convincing standard of
proof in patent litigation.75
Instead of relying on patent law, we look to the
relevant standard of proof for the constitutional claims
being brought here. In Crawford-El v. Britton, the
Supreme Court explicitly rejected efforts to impose a
higher standard of proof on § 1983 litigants.76 There, a
deeply divided en banc Court of Appeals for the D.C.
Circuit had imposed a heightened clear and convincing
standard of proof for adjudicating a claim under
§ 1983. The court reasoned: “If a heightened standard
of proof—clear and convincing evidence—was a sound
remedy in the area of public figure defamation, we
think it is equally so in the cognate area of officer
damage liability for constitutional torts . . .”77
The Supreme Court disagreed. It rejected an acrossthe-board elevation of the standard of proof for civil
rights claims. The Court cautioned that a higher
standard of proof “carries a high cost” for “plaintiffs
with bona fide constitutional claims.”78 The Court
explained that Congress has shown itself perfectly
capable of increasing the burden of proof in specific
areas (for prison litigation, for example).79 “Neither the
text of § 1983 or any other federal statute, nor the
74

FTC v. AbbVie Inc., 329 F. Supp. 3d 98, 106 (E.D. Pa. 2018).

75

See, e.g., Tyco Healthcare Grp. LP, 762 F.3d at 1345.

76

523 U.S. 574, 595-96 (1998).

77

Crawford-El v. Britton, 93 F.3d 813, 823 (D.C. Cir. 1996).

78

Crawford-El, 523 U.S. at 595-96.

79

Id. at 596-97.

22a
Federal Rules of Civil Procedure, provide any support
for imposing the clear and convincing burden of proof
on plaintiffs either at the summary judgment stage or
in the trial itself.”80
E) The § 1983 Context
In 1871, Congress created what is now 42 U.S.C.
§ 1983 as a tool to combat racial discrimination.81 Today
it is a bulwark of liberty, permitting citizens to seek
relief when the government, or its agents, wrong
them.82 However, such plaintiffs must surmount several intentionally erected hurdles. “To establish any
claim under § 1983, a plaintiff must demonstrate that
(1) the conduct at issue was committed by a person
acting under the color of state law, and (2) the
complained-of conduct deprived the plaintiff of rights
secured under the Constitution or federal law.”83
These limitations have been carefully adjusted in
recent decades.84 For instance, municipal defendants
receive the benefit of heightened fault standards,
80

Id. at 594; see also Herman & McLean v. Huddleston, 459
U.S. 375, 390 (1983) (permitting a “preponderance of the
evidence” standard for claims arising under federal “civil rights
laws”).
81

See Wilson v. Garcia, 471 U.S. 261, 276-77 (1985) (“By
providing a remedy for the violation of constitutional rights,
Congress hoped to restore peace and justice . . . through the subtle
power of civil enforcement.”).
82

Id. at 278 (finding § 1983’s protections “are contained in the
Bill of Rights and lie at the base of all our civil and political
institutions” (internal quotation marks omitted)).
83

Baloga v. Pittston Area Sch. Dist., 927 F.3d 742, 752 n.6 (3d
Cir. 2019).
84

See, e.g., Monell v. Dep’t. of Soc. Servs., 436 U.S. 658, 694-95
(1978) (titrating the first requirement); Davidson v. Cannon, 474
U.S. 344, 347–48 (1986) (expanding the second).

23a
designed to avoid “open[ing] municipalities to unprecedented liability under § 1983.”85 Plaintiffs must contend with an individual state actor’s possible entitlement to different forms of immunity86 In addition, only
certain remedies are allowed.87
A potential § 1983 litigant must therefore navigate
an obstacle course erected to protect against a flood of
grievances that could deter government actors from
their duties.88 Erecting yet another obstacle by requiring proof by clear and convincing evidence would
threaten that careful legislative and judicial balance
of competing priorities. The Supreme Court reached
precisely this conclusion in Crawford-El. There, the
Court reasoned that a heightened standard of proof in
civil rights disputes, “lacks any common-law pedigree
and alters the cause of action itself in a way that
undermines the very purpose of § 1983.”89
Accordingly, we have repeatedly held preponderance of the evidence to be the proper standard for
85

City of Canton v. Harris, 489 U.S. 378, 391 (1989).

86

Will v. Mich. Dep’t of State Police, 491 U.S. 58, 71 (1989)
(“Obviously, state officials literally are persons. But a suit against
a state official in his or her official capacity is not a suit against
the official but rather is a suit against the official's office.”).
87

Compare Edelman v. Jordan, 415 U.S. 651, 675–77 (1974)
(affording sovereign immunity to § 1983 claims for retrospective
relief), with Hafer v. Melo, 502 U.S. 21, 31 (1991) (permitting
suits against state officials in their individual capacities).
88

See Wyatt v. Cole, 504 U.S. 158, 167 (1992) (recognizing the
“balance between compensating those who have been injured by
official conduct and protecting government's ability to perform its
traditional functions”); Harlow v. Fitzgerald, 457 U.S. 800, 816
(1982) (reflecting upon the “attempted balancing of competing
values” inherent to inquiries into subjective intent).
89

Crawford-El, 523 U.S. at 595.

24a
§ 1983 claims. Our model jury instructions so instruct
the District Courts.91 In imposing this heightened
standard of proof where both sides sought to vindicate
First Amendment rights, the District Court’s approach
fails to appreciate the distinction between First
Amendment rights and patent rights insofar as
the Noerr-Pennington doctrine is concerned. Because
there is no “[s]upport for imposing a clear and convincing burden of proof” on a § 1983 claim,92 proof by a
preponderance of the evidence remains the appropriate standard here.
90

III.
The District Court carefully inquired into Campbell’s
claims and found they were not objectively baseless.
Accordingly, the Court held that Campbell was entitled to Noerr-Pennington protection. The Court also
reasoned that the actions that gave rise to PSBA’s
state tort claims were obviously protected by the First

90

See, e.g., Baloga, 927 F.3d at 752 (“To prevail on a First
Amendment retaliation claim under 42 U.S.C. § 1983 . . . the
government may avoid liability if it can show by a preponderance
of the evidence that it would have taken the adverse action even
in the absence of the protected conduct.”) (internal quotation
marks omitted); Goodwin v. Conway, 836 F.3d 321, 327 (3d Cir.
2016) (citing Wilson v. Russo, 212 F.3d 781, 786-87 (3d Cir.
2000)); Reichley v. Penn. Dep’t of Agric., 427 F.3d 236, 244 (3d Cir.
2005) (“The plaintiffs have the burden of establishing liability
under § 1983 by a preponderance of the evidence.”).
91

Third Circuit Court of Appeals Model Civil Jury Instruction
4.3 (2019) (“[Plaintiff] must prove both of the following elements
by a preponderance of the evidence . . .”) (emphasis added).
United States v. Petersen, 622 F.3d 196, 208 (3d Cir. 2010) (“We
have a hard time concluding that the use of our own model jury
instruction can constitute error . . . .”).
92

Crawford-El, 523 U.S. at 594.

25a
Amendment, and PSBA’s suit was therefore not
objectively baseless.93 Nevertheless, the Court still
afforded Noerr-Pennington immunity to the State
Suit because Campbell had not produced clear and
convincing evidence that PSBA’s state claims were
“subjectively baseless.”
Our standard of review of that decision is de novo.94
We will accept for the purposes of this appeal the
District Court’s well-reasoned conclusion—drawing
all inferences in Campbell’s favor at summary
judgment—that Campbell’s RTKL related conduct
was not baseless. Because the underlying activity was
constitutionally protected,95 we also accept the District
Court’s conclusion that PSBA’s State Suit is objectively baseless, as the First Amendment protected all
of Campbell’s alleged activities. Campbell’s activities
here could not reasonably be construed as defamatory

93

The parties disagree about whether the District Court
concluded that PSBA is a state actor. While that court properly
reserved judgment on the question, it did determine that PSBA
is at least a limited public figure and therefore had to establish
Campbell’s actual malice in the State Suit for it not to have been
objectively baseless. See U.S. Healthcare, Inc. v. Blue Cross of
Greater Phila., 898 F.2d 914, 938-39 (3d Cir. 1990) (discussing
the factors relevant to classification as a limited public figure).
94

Viera v. Life Ins. Co. of N. Am., 642 F.3d 407, 413 (3d Cir.
2011) (“We review a district court's grant of summary judgment
de novo, applying the same standard the district court applied.”).
95

A fact that PSBA tacitly acknowledged by pleading “actual
malice” in both its initial and amended complaints in the State
Suit. App. 428, 699. Had it not been aware of its own public
status, this heightened standard would not have been necessary
for culpability.

26a
given his allegations and the plausible state actor
status of PSBA.96
The dispositive question that remains is whether
PSBA’s State Suit was also subjectively aimed at
interfering with Campbell’s constitutionally protected
conduct.
We agree that Campbell cannot satisfy the subjective prong under the clear and convincing standard.
He has failed to establish PSBA’s: (1) indifference to
the outcome of the suit, (2) insufficient potential recovery to justify bringing the State Suit, or (3) that PSRB
“decided to sue primarily for the benefit of collateral
injuries inflicted through the use of legal process.”97
Campbell’s evidence amounts to PSBA’s statements,
conduct, and choice of attorneys. This evidence does
not speak to whether PSBA intended the process itself,
rather than its outcome, to achieve its goals. This is
not enough.98
As we have explained, the District Court’s clear and
convincing standard imposed too high of a burden on
Campbell. We nevertheless will affirm the District
Court’s grant of summary judgment to PSBA because
Campbell’s evidence here is insufficient to strip PSBA

96

The District Court detailed how each of Campbell’s actions
against PSBA (including the insulting depiction of its Executive
Director, Nathan Mains, on a website entitled “PSBA Horror”)
had some factual basis, whether obtained through RTKL
responses or other sources. Further, Mains and others at PSBA
had constructive notice of their public status, introducing a high
bar for defamation claims to succeed.
97

PREI, 508 U.S. at 65.

98

Noerr, 365 U.S. at 139.

27a
of Noerr-Pennington immunity even under the less
onerous preponderance standard.
IV.
Under that lesser standard, Campbell’s evidence
needed to demonstrate by a preponderance of the
evidence that PSBA intended the State Suit as “use of
governmental process—as opposed to the outcome of
that process” as a “weapon.”99 We consider the evidence he offers: first, the statements of PSBA and its
members before filing the suit, and second, the
manner in which PSBA pursued the suit.
A) PSBA’s statements
Campbell argues strongly that PSBA’s own words
reveal its motivation in bringing the State Suit “was
all about protecting [PSBA’s] members” and making
Campbell’s alleged “harassment of school districts
stop.”100 He argues that PSBA was motivated to “tak[e]
legal action on behalf of its membership.”101 He claims
his incessant flood of RTKL requests was causing
difficulties for the targeted school districts, and PSBA
intended its suit as a mechanism to terminate his
RTKL requests. Campbell points to statements from
Nathan Mains that PSBA was developing “a significant response” as proof that the organization sought
to squelch his activities.102 He argues that the appreciation of grateful school districts after Campbell’s

99

PREI, 508 U.S. at 50 (emphasis in original).

100

App. at 1497, 1510-11.

101

App. at 312.

102

App. at 140.

28a
requests ceased proves that this was PSBA’s objective
in filing the State Suit.103
Indeed, PSBA did sue Campbell to get him to stop
his RTKL-related conduct and PSBA never attempted
to disguise or deny that objective. It criticized
Campbell’s prolific use of the RTKL requests in its
filings before the District Court. In one such filing,
PSBA argued: “Campbell is using the RTKL as if he
were back in London standing atop his soapbox in
Hyde Park.”104 Campbell argues that when he continued filing RTKL requests, PSBA amended its complaint to add his new activities in a further effort to
silence him.105
B) PSBA’s actions
Second, Campbell argues that PSBA used the legal
process to punish him. He claims the attempt to
punish him began before filing the State Suit, when
PSBA demanded that he remove the parody of Nathan
Mains and desist from further “defamatory” statements.106 Then, when the State Suit was filed, PSBA’s
attorneys requested Campbell retain documents from
the past seven years. But there is nothing punitive
about asking an opposing party to preserve documents
relevant to litigation, and we will not here attempt to
erect some kind of time restriction on such a request.
Moreover, Campbell’s argument that such a request
was intended to be punitive is laden with irony given

103

App. at 155, 163.

104

ECF No. 18 at 15.

105

Appellant’s Br. at 53.

106

App. at 138.

29a
the voluminous records requests Campbell has repeatedly directed at school boards across the state.
Finally, Campbell claims PSBA’s motives were laid
bare by its distribution of the State Suit complaint to
its members, though it contained claims that were
later discounted as untrue, and by PSBA’s settlement
demand that Campbell stop attacking PSBA and its
staff.107
C) Analysis
At summary judgment, we are charged with viewing
Campbell’s evidence “in the light most favorable to the
party opposing summary judgment, and resolv[ing] all
reasonable inferences in that party’s favor.”108 Yet
even under this deferential standard, we cannot
discern a single quantum of evidence, amidst the
mountain of facts that Campbell provides, that would
support a conclusion that PSBA aimed to use the
process of the suit, as opposed to a successful outcome,
to accomplish its objective: ending Campbell’s RTKL
onslaught. We readily agree that PSBA’s eagerness to
achieve this goal radiates from each incident he
complains of. However, that does not prove that the
suit itself, as opposed to prevailing on the merits, was
PSBA’s subjective motivation.
Indeed, the record indicates that PSBA wanted
Campbell to stop overwhelming its members with
RTKL requests and that it filed the State Suit in hopes
of accomplishing that goal. The fact that PSBA readily
accused Campbell of defamation, that it sought to
terminate his activities, and that it celebrated its
progress in achieving that goal simply fails to satisfy
107

App. at 173-74, 303-04, 1484-86.

108

Wishkin v. Potter, 476 F.3d 180, 184 (3d Cir. 2007).

30a
the subjective prong, even by a preponderance of the
evidence.
PSBA’s leadership harboring personal animus
against Campbell does not establish that the State
Suit was subjectively baseless. If animus alone were
the test, it would readily devour the rule, since litigation is rarely sparked by feelings of warmth and amity.
The protection of Noerr-Pennington immunity cannot
be swept away by simple dislike.
Accordingly, Campbell simply cannot satisfy the
subjective prong by a preponderance of the evidence.
Because this case must be decided on the record before
us at summary judgment, “[w]e need not remand
to the District Court to consider it in the first
instance.”109
V.
For the reasons set forth above, we will affirm the
District Court’s grant of summary judgment.

109

In re Ben Franklin Hotel Assocs., 186 F.3d 301, 306 (3d Cir.
1999) (citing Chase Manhattan Bank, N.A. v. Am. Nat'l Bank &
Tr. Co., 93 F.3d 1064, 1072 (2d Cir. 1996) (“An appellate court
has the power to decide cases on appeal if the facts in the record
adequately support the proper result . . .”)).

31a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
[Filed August 27, 2020]
————
No. 18-3112
————
SIMON CAMPBELL; PENNSYLVANIANS
FOR UNION REFORM,
Appellants
v.
PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, solely in his individual
capacity; DAVID HUTCHINSON; solely in his
individual capacity; OTTO W. VOIT, III, solely
in his individual capacity; KATHY SWOPE,
solely in her individual capacity; LAWRENCE
FEINBERG, solely in his individual capacity;
ERIC WOLFGANG, solely in his individual capacity;
DANIEL O’KEEFE, solely in his individual capacity;
DARRYL SCHAEFER, solely in his individual capacity;
THOMAS KEREK, solely in his individual capacity;
and LYNN FOLTZ, solely in her individual capacity,
————
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(District Court No. 2-18-cv-00892)
District Judge: Honorable Jan E. DeBois
————
Submitted Under Third Circuit L.A.R. 34.1(a)
May 20, 2019
————

32a
Before: MCKEE, SHWARTZ, and FUENTES,
Circuit Judges.
————
JUDGMENT
This cause came to be considered on the record from
the United States District Court for the Eastern
District of Pennsylvania and was submitted on May
20, 2019. On consideration whereof,
It is now hereby ORDERED and ADJUDGED by
this Court that the Order of the District Court, entered
on August 24, 2018, is hereby AFFIRMED. All of the
above in accordance with the opinion of the Court.
Each party to bear its own costs.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATE: August 27, 2020

33a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
[Filed: August 24, 2018]
————
CIVIL ACTION
No. 18-892
————
SIMON CAMPBELL, and
PENNSYLVANIANS FOR UNION REFORM,
Plaintiffs,
v.
PENNSYLVANIA SCHOOL BOARDS ASSOCIATION,
MICHAEL FACCINETTO, DAVID HUTCHINSON,
OTTO W. VOIT, III, KATHY SWOPE, LAWRENCE
FEINBERG, ERIC WOLFGANG, DANIEL O’KEEFE, DARRYL
SCHAFER, THOMAS KEREK, and LYNN FOLTZ,
in their individual capacities,
Defendants.
————
DuBois, J.
August 23, 2018
————
MEMORANDUM
I. INTRODUCTION
In this suit arising under 42 U.S.C. § 1983, plaintiffs
allege that a tort suit filed by defendant Pennsylvania
School Boards Association (“PSBA”) in the Court of

34a
Common Pleas of Cumberland County, Pennsylvania
(“state suit”) retaliates against plaintiffs for the exercise of their First Amendment rights of free expression
and to petition the government. The state suit alleges
that certain commentary and lobbying by plaintiffs
constitute defamation, abuse of process, and tortious
interference with contract. Presently before the
Court is defendants’ Motion for Summary Judgment.
Because defendants have shown that they are entitled
to judgment as a matter of law, defendants’ Motion is
granted.
II. BACKGROUND
The undisputed material facts in the record before
the Court, taken in the light most favorable to plaintiffs, may be summarized as follows:
A. The Parties
Plaintiff Simon Campbell is a resident of Bucks
County, Pennsylvania, and a naturalized citizen of
the United States, originally from the United Kingdom.
Plts.’ Resp. Statement Undisp. Facts ¶ 1, Doc. No. 49
[hereinafter Undisp. Facts]. In “approximately” 2013,
Campbell founded plaintiff Pennsylvanians for
Union Reform (“PFUR”), a non-profit advocacy group
that “seeks to eliminate compulsory unionism in
Pennsylvania while promoting transparency and efficiency in government for taxpayers.” Id. ¶¶ 2, 4.
Campbell and PFUR conduct their advocacy work
through a number of channels, including the filing of
requests under Pennsylvania’s Right to Know Law
(“RTKL requests”), 65 Penn. Stat. §§ 67.101 et seq.,
lobbying government officials directly, and the maintenance of an official PFUR website at the URL www.
paunionreform.org. E.g., id. ¶¶ 3, 41, 94-95, 133, 164.
At the times relevant to this case, Campbell also main-

35a
tained a website at www.psbahorror.com, paid for with
his personal funds. Jt. Stip. ¶ 140.
Defendant Pennsylvania School Boards Association
(“PSBA”) is a non-profit association of public school
boards, incorporated under the laws of Pennsylvania.
Undisp. Facts ¶ 4; Joint Stipulation Facts & Evidence
¶ 66, Doc. No. 50 [hereinafter Jt. Stip.]. The individual
defendants in this case were the ten voting members
of the Governing Board of PSBA (“Board”) at all
relevant times, including the time when the Board
unanimously voted to authorize the state suit against
plaintiffs. Undisp. Facts ¶ 125. Seven of the individual
defendants remain on the Board and collectively
constitute a quorum of the Board, capable of discontinuing the state suit. Jt. Stip. ¶¶ 16-19.
B. Structure of PSBA
The structure and mission of PSBA and its relationship to the state are central to this case. As noted
above, PSBA is an association of public school districts
in Pennsylvania that “exists to further the interests
of public education and to provide assistance to public
school entities that are members of PSBA.” Jt. Stip.
¶ 84. PSBA’s membership consists entirely of “public
school districts, Intermediate Units, career and technical schools, state-supported colleges and universities, and such other statutorily-created public education entities” (“Public School Entities”). Jt. Stip. ¶ 69.
The “overwhelming majority” of Pennsylvania public
school districts are members of PSBA. Jt. Stip. ¶¶ 69.
Membership in PSBA is expressly authorized by
statute, 24 Penn. Conn. Stat. § 5-516, and Public
School Entities may elect to join PSBA only “pursuant
to a vote of the entity’s governing board” at a public
meeting. Jt. Stip. ¶¶ 70, 86, 90.

36a
Once the governing board of a Public School Entity
elects to join PSBA, the entity itself becomes a
member of PSBA. See Jt. Stip. ¶¶ 66, 86. “Derivative
membership” is, in turn, “bestowed” on “the elected or
appointed directors of such entity and upon certain
other officials of that entity.” Jt. Stip. ¶ 86. Votes for
members of the Governing Board of PSBA are cast
by each Public School Entity, as determined by “a
majority vote of each member entity taken at an
official public meeting of such member entity.” Jt.
Stip. ¶ 87. Other matters before PSBA’s membership,
including approval of its legislative platform, are voted
on by an annual Delegate Assembly, comprised of
delegates appointed by each member’s respective governing board. Bylaws of the Pennsylvania School
Boards Association, Inc. art. VIII, §§ 1-2, 4 (Oct. 20,
2017), Exs. P-99, D-36. Delegates must be derivative
members of PSBA—that is, school board officials or
the non-voting secretary of a school board. Id. art.
VIII, § 2; art. I, § 2.
PSBA’s Board consists of ten voting directors, who
“must be elected, currently-serving members of the
board of a member government entity that itself is a
member in good standing of PSBA,” along with one
non-voting member. Jt. Stip. ¶ 87. As noted above, the
members of PSBA’s Board are elected by votes cast by
PSBA’s Public School Entity members. Id. With the
exception of the President Elect, President, and
Immediate Past President of the Board, the eligibility
of a derivate member to serve on the PSBA Board is
“contingent” on the derivative member’s continued
service on the board of a Public School entity. Id.
Without exception, all Board members’ respective
Public School Entities must continue to be members of
PSBA in good standing. Id.¶ 89. If a Board member or
his or her respective Public School Entity fails to

37a
meet these requirements, he or she is automatically
removed from the PSBA Board. Id. ¶¶ 88- 89.
C. Membership in PSBA
An entity’s PSBA membership is contingent on payment of a membership fee—and approval of that
payment by the entity’s governing board—every year.
Undisp. Facts. ¶ 104; Jt. Stip. ¶¶ 90, 136. Membership
in PSBA is voluntary and Public School Entities may
withdraw at any time. Undisp. Facts ¶ 19. The
“majority of PSBA’s revenues” derive from membership dues and fees “paid for optional services and
goods.” Jt. Stip. ¶¶ 71, 105.
In exchange for membership fees, PSBA provides
certain services to its members, including “[l]egal
advocacy in the name of PSBA on issues of statewide
importance to public schools” and “[l]egislative advocacy for all public schools, other than charter schools.”
Undisp. Facts ¶¶ 102, 105; see also Jt. Stip. ¶¶ 84-85.
“An essential component of PSBA’s purpose is advocating the interests of public education in helping
to shape law and education policy in front of the
legislature, administrative agencies and the courts.
PSBA’s judicial advocacy is one of the benefits that
PSBA provides to its government entity members for
the price of such entities’ membership.” Jt. Stip. ¶ 85
In addition to its judicial and legislative advocacy,
PSBA provides its members with a number of
publications, a searchable grant database, “legal links
and resources,” webinars, access to online training,
and access to a “Career Gateway job posting site.”
Undisp. Facts ¶ 105. PSBA also provides its members
with “assistance in the development of school policies,”
“personnel recruiting assistance,” and assistance in
employee relations. Jt. Stip. ¶ 77. Additional services

38a
are available to members for additional fees, including
executive search services, “[b]oard policy services,”
and a “School Law and arbitration newsletter.” Undisp.
Facts ¶ 106.
D. Plaintiffs’ Underlying Activities
PSBA’s mission and relationship with Pennsylvania
public schools were the focus of plaintiffs’ activity
beginning in March 2017, when plaintiffs sent an
RTKL request to “most, if not all, public school agencies” in the state. Undisp. Facts ¶ 136. In the request,
plaintiffs sought, inter alia, the contact information
for certain school district employees and for the representatives of public employee unions. Verif. Compl.
ex. 1. On March 28, 2017, PSBA staff attorney Emily
Leader sent an email to the Public School Entity
members of PSBA regarding plaintiffs’ RTKL request.
Undisp. Facts ¶ 138; Verif. Compl. ex. 1. In the
email, Leader advised the PSBA members to provide
certain information such as publicly available contact
information for receiving RTKL requests, the names of
union presidents, and copies of collective bargaining
agreements. Verif. Compl. ex. 1. Leader concluded,
however, that employee email addresses that were not
publicly published were not public records subject to
the Right to Know Law. Id.
On April 14, 2017, another PSBA staff attorney,
Stuart Knade, sent a follow-up email to the members
of PSBA, providing further “guidance” in responding
to the request. Undisp. Facts ¶ 141; Jt. Stip. ¶ 3; Verif.
Compl. ex. 2. In the email, Knade advised PSBA’s
members, inter alia, that the Right to Know Law
required them to do no more than make the requested
documents “available for pick up at the district
offices.” Verif. Compl. ex. 2 at 5. Knade noted, however, that his assessment was contrary to “early

39a
decisions” by Pennsylvania’s Office of Open Records
and that “anyone choosing to take [this] position . . .
must be prepared to litigate this through at least the
Commonwealth Court and possibly the Pennsylvania
Supreme Court.” Id. Knade also noted that the production of certain information was subject to a balancing
test articulated by the Pennsylvania Supreme Court
to protect the privacy interests of public employees. Id.
On April 25, 2017, Michael Levin, outside general
counsel for PSBA, provided plaintiffs with a copy of
PSBA’s 2014 federal tax return via email, pursuant to
a separate federal records request filed by plaintiffs.
Defs.’ Resp. to Pls.’ St. Suppl. Mat. Facts ¶ 49, Doc. No.
56-1 [hereinafter Defs.’ Resp.]. Campbell responded to
Levin in a series of email on April 28, 2017, with other
individuals copied, stating, in part, that Levin was
serving in a “conflict-riddled role” because he served
as counsel for both PSBA and some of its entity
members. Id. ¶¶ 50, 82; Ex. P-476, exs. A-B. Campbell
also stated that PSBA “has caused a disgraceful abuse
of government resources by advising school solicitors
that they may withhold their work email addresses
under the RTKL,” referring to Leader and Knade’s
earlier emails. Defs.’ Resp. ¶ 50; Ex. P-476, exs. A-B.
Plaintiffs eventually posted copies of Leader and
Knade’s emails to PFUR’s website on a page titled
“PSBA Horror.” See Undisp. Facts ¶ 165; Exs. P-103A, P-504.
On May 8, 2017, Campbell sent a second RTKL
request “to approximately 600 members statewide.”
Undisp. Facts ¶ 142. Each of the 600 RTKL requests
contained twenty-seven separate “items.” Verif. Compl.
ex. 5. A number of those items sought documents
related to PSBA and its activities, including “[e]xtracted
computerized information” detailing specific expendi-

40a
tures by PSBA. Verif. Compl. ex. 5, items 15-21. In
addition to the requests regarding PSBA, the May 8,
2017, RTKL request stated, “I call upon elected school
officials to terminate the taxpayers forced relationship
with PSBA. Revoke PSBA membership. . . . Stop
making taxpayers fund the salaries and . . . pensions
of a private corporation’s employees.” Undisp. Facts
¶ 144. The request also included a link to a thirtythree minute video of Campbell, “ostensibly to aid
school districts and their solicitors in responding to
his requests.” Undisp. Facts ¶ 147. After receiving
plaintiffs’ May 8, 2017, RTKL request, “more than 240
school districts” contacted PSBA for documents sought
in the request. Undisp. Facts ¶ 149; Jt. Stip. ¶ 79.
On May 16, 2017, Levin provided PSBA’s members
with guidance regarding plaintiffs’ May 8, 2017, RTKL
request. Doc. No. 71 at 24. Levin advised the Public
School Entities to produce some of the requested
information such as evidence that the entity “is not a
member” of PSBA, while other information was subject to a balancing test to protect the privacy interests
of public employees. Ex. P-44 at 6-7. Levin further
advised its members that it would not respond to
plaintiffs’ requests for “[e]xtracted computerized information” because its services were not “nonancillary
core governmental functions” as required by the
RTKL. Id. at 12. PSBA ultimately declined to provide
those documents. Undisp. Facts. ¶ 151.
Plaintiffs eventually obtained a copy of Knade’s
April 14, 2017, email in which he advised PSBA’s
members that they needed only to make the requested
documents available at the “district offices” for
“pickup.” Defs.’ Resp. ¶ 67. In response, plaintiffs posted a photo of PSBA Executive Director Nathan Mains
to the paunionreform.org website on a page titled

41a
“PSBA Horror” with a word bubble stating, “Taxpayers, thanks for the $226,000 and the public pension!
Now **** off, and drive to the school district if you
want public records. And don’t forget your check
book.” Jt. Stip. ¶ 120; Exs. P-103-A, P-519 (alterations
in original). Mains does, in fact, receive a salary of
at least $226,000 and participates in Pennsylvania’s
Public School Employees Retirement System (“PSERS”),
a government pension program. Defs.’ Resp. ¶ 84; Jt.
Stip. ¶ 72.
In response, Levin sent Campbell a letter dated May
12, 2017, demanding that Campbell remove the image
of Mains. Jt. Stip. ¶ 44; Verif. Compl. ex. 7. Campbell
complied, but replaced the image with an image of the
letters “PSBA” and a word bubble stating, “Taxpayers,
thanks for the $226,000 for our Executive Director
Nathan Mains. And thanks for the public pensions too.
Now *%$&@ off, and drive to the school district if you
want public records under the Right to Know Law!” Jt.
Stip. ¶ 45; Ex. P-504 (alterations in original). Beneath
the letters “PSBA,” the image stated, “Public salaries,
intimidation tactics, and much more.” Ex. P-504.
PFUR’s website included other statements regarding PSBA. In one video posted to the website,
Campbell described the RTKL requests sent to Public
School Entities as “pertain[ing] to whether or not the
school boards association is in fact a school boards
association versus an association of individual people
that show up, drink some wine at the cocktail party,
and vote on things in their individual capacities.” Jt.
Stip. ¶ 52.
Campbell also posted images regarding PSBA on
his personal website at www.psbahorror.com. For
example, Campbell posted a second photo of Mains
with a word bubble stating, “Hey school children, ****

42a
the Constitution! **** the bill of rights.” Defs.’ Resp.
¶ 70 (alterations in original); Ex. P-505. Likewise, in
response to a separate RTKL request, Campbell
received a letter dated November 13, 2017, from
the Pennsylvania Department of Transportation
(“PennDOT”) stating that it had records responsive to
plaintiffs’ request for documents “as to whether
employees of PSBA, or members of PSERS, are entitled to be exempt from fees” for registering vehicles.
Defs.’ Resp. ¶ 87; Ex. P-458. In its letter, however,
PennDOT denied plaintiffs’ request on the ground
that PennDOT had its own “statutory and regulatory
scheme for” obtaining “motor vehicles records.” Ex. P458 at 2. The record does not reveal whether PSBA
employees were exempted from payment of registration fees. Undisp. Facts ¶¶ 120-21. Campbell subsequently posted a stock image of vehicles with the
caption “Freebie State Government Auto Tags for
PSBA!” Defs.’ Resp. ¶ 82.
E. The State Suit
Based on plaintiffs’ conduct, the PSBA Board—
comprised of the individual defendants—voted unanimously on June 12, 2017, to authorize a suit against
plaintiffs. Undisp. Facts ¶ 162; Jt. Stip. ¶¶ 9, 11; Defs.’
Resp. ¶ 74. Pursuant to that vote, PSBA filed suit on
June 17, 2017, in the Court of Common Pleas of
Cumberland County, Pennsylvania, setting forth
counts against plaintiffs for defamation, tortious interference with contractual relations, and abuse of process. Jt. Stip. ¶¶ 7-8; Ex. P-106, P-473. That same day,
Mains sent an email to the Public School Entity
members of PSBA, announcing the filing of the state
suit. Jt. Stip. ¶¶ 54, 95; Verif. Compl. ex. 10. In the
email, Mains stated that Campbell’s “perver[sion] of
the intent of the Right to Know Law” and “his

43a
continued defamation of PSBA . . . has caused
substantial damages to the association’s reputation.”
Verif Compl. ex. 10. Michael Faccinetto, the President
of PSBA at the time the state suit was filed, testified
that the state suit was meant to “stop” Campbell from
“harassing districts with . . . unreasonable request[s]
[and] to stop defaming members of the organization.”
Dep. Michael Faccinetto 79:1-9, Ex. P-511. Following
the filing of the state suit, counsel for defendants sent
plaintiffs a “Litigation Hold Notice” dated July 19,
2017. Jt. Stip. ¶ 55; Verif. Compl. ex. 11.
On October 16, 2017, Mains sent an email to “over
4,500 „school directors, chief school administrators,
school solicitors and board secretaries‟” linking to an
“unsigned, unfiled copy” of the complaint in the state
suit. Jt. Stip. ¶ 57; Verif. Compl. ex. 12. PSBA filed an
Amended Complaint in the state suit on December 11,
2017. Jt. Stip. ¶ 14; Ex. P-476.
F. Proceedings in this Court
Plaintiffs filed suit in this Court on February 28,
2018, alleging that PSBA‟s state suit, the announcement of that suit, the issuance of the litigation hold
notice, and the filing of the Amended Complaint were
in retaliation for plaintiffs’ exercise of their First
Amendment rights of free expression and to petition
the government for redress. Id. ¶¶ 53-59. Plaintiff’s
Verified Complaint filed in this Court contains two
counts of First Amendment retaliation under 42
U.S.C. § 1983, the first for injunctive relief and the
second for compensatory and punitive damages.
Pursuant to the Court’s Order dated April 13, 2018,
plaintiffs filed a Motion for Entry of a Permanent
Injunction on April 20, 2018, and a Hearing on that
Motion was scheduled for July 23, 2018 (“Hearing on
Injunctive Relief”). In that same Order, the Court

44a
directed the parties to conduct discovery in two
phases; phase one was to “cover all discovery related
to injunctive relief” and was to be complete by June 1,
2018. Because entry of a permanent injunction
requires plaintiffs to succeed on the merits of their
claims, Coffelt v. Fawkes, 765 F.3d 197, 201 (3d Cir.
2014), phase one of discovery included all discovery on
liability.
By Order dated June 19, 2018, the Court denied
defendants’ Motion[s] to Dismiss Complaint and/or
Strike Impertinent and Scandalous Language.
Defendants filed their Motion for Summary Judgment
on June 29, 2018. Due to issues unrelated to
defendants’ Motion for Summary Judgment, the
Hearing on Injunctive Relief was continued to August
6, 2018, by Order dated July 9, 2018.
After receiving plaintiffs’ Brief in Opposition to
Defendants’ Motion for Summary Judgment and
defendants’ Reply Brief in Support of Defendants’
Motion for Summary Judgment, the Court conducted
a Final Pre-Trial Conference with the parties on July
26, 2018. During the Conference, the Court discussed,
inter alia, defendants’ Motion for Summary Judgment. The parties agreed that the record before the
Court was complete with respect to issues of liability
and that any ruling by the Court in favor of plaintiffs
that the state suit was objectively (or subjectively)
baseless under the Noerr-Pennington doctrine, infra,
did not require further proceedings under Federal
Rule of Civil Procedure 56(f).1 Doc. No. 69 at 59:1260:23. The Court also asked the parties if they
1

Subjective baselessness was not addressed in this context at
the Final Pretrial Conference but the issues under Rule 56(f) are
the same.

45a
required further notice under Rule 56(f). Id. at 56:20
57:13, 59:23-60:12. In response, the parties did not
object to proceeding on the record before the Court. Id.
By agreement of the parties, for reasons unrelated to
this Memorandum and Order, the Hearing on
Injunctive Relief was continued until further order of
the Court.
On July 31 and August 7, 2018, the parties filed
additional briefs on the issue of subjective baselessness under the Noerr-Pennington doctrine. On August
16, 2018, plaintiffs filed a Motion for Leave to Amend
the Complaint to Add a Count for Declaratory Relief.
Defendants’ Motion for Summary Judgment and
Plaintiffs’ Motion for Entry of a Permanent Injunction
are ripe for decision.
III. LEGAL STANDARD
A. Motion for Summary Judgment
The Court will grant a motion for summary judgment if “the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a); see Celotex Corp. v. Catrett, 477 U.S. 317, 32223 (1986). A fact is material when it “might affect
the outcome of the suit under the governing law.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). A dispute is genuine “if the evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.” Id.
The Court’s role at the summary judgment stage “is
not . . . to weigh the evidence and determine the truth
of the matter but to determine whether . . . there is
sufficient evidence favoring the nonmoving party for
a jury [or the court in a non-jury trial] to return a
verdict for that party.” Id. at 249. However, the

46a
existence of a “mere scintilla” of evidence in support of
the nonmoving party is insufficient. Id. In making this
determination, “the court is required to examine the
evidence of record in the light most favorable to the
party opposing summary judgment, and resolve all
reasonable inferences in that party’s favor.” Wishkin
v. Potter, 476 F.3d 180, 184 (3d Cir. 2007). However,
the party opposing summary judgment must identify
evidence that supports each element on which it has
the burden of proof. Celotex Corp., 477 U.S. at 322.
B. First Amendment Retaliation Claims Under
§ 1983
Plaintiffs’ Verified Complaint sets forth two claims
for First Amendment retaliation under 42 U.S.C.
§ 1983. Section 1983 provides that “[e]very person
who, under color of any statute, ordinance, regulation,
custom, or usage, of any State . . . subjects, or causes
to be subjected, any citizen of the United States . . . to
the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress.” 42 U.S.C.
§ 1983; accord Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526
U.S. 40, 49-50 (1999). By the terms of § 1983, “two—
and only two—allegations are required in order to
state a cause of action under that statute. First, the
plaintiff must allege that some person has deprived
him of a federal right. Second, he must allege that the
person who has deprived him of that right acted under
color of state or territorial law.” Gomez v. Toledo, 446
U.S. 635, 640 (1980).
Plaintiffs allege they were deprived of a federal
right when defendants retaliated against them for
exercising their First Amendment rights. “In order to
plead a retaliation claim under the First Amendment,

47a
a plaintiff must allege: (1) constitutionally protected
conduct, (2) retaliatory action sufficient to deter a
person of ordinary firmness from exercising his
constitutional rights, and (3) a causal link between the
constitutionally protected conduct and the retaliatory
action.” Thomas v. Indep. Twp., 463 F.3d 285, 296 (3d
Cir. 2006). In addition to the above elements, a First
Amendment claim requires the conduct complained
of to constitute “state action,” which satisfies the
requirement under § 1983 that the defendant act
under color of state law. Brentwood Acad. v. Tenn.
Secondary Sch. Ath. Ass’n, 531 U.S. 288, 295 n.2
(2001). It is under this law that the Court considers
defendants’ Motion for Summary Judgment.
IV. DISCUSSION
In their Motion for Summary Judgment, defendants
raise five arguments: (1) the conduct of PSBA and the
individual defendants does not constitute state action;
(2) plaintiffs’ activity is not protected by the First
Amendment; (3) the state suit is immunized under the
First Amendment by the Noerr-Pennington doctrine;
(4) the individual defendants are shielded by qualified
immunity; and (5) plaintiffs have not adduced evidence to support the imposition of punitive damages.
Defendants’ arguments present several interrelated
constitutional issues under the First Amendment. In
particular, defendants argue that the filing of the state
suit is protected by the First Amendment right to
petition under the Noerr-Pennington doctrine. Significantly, however, that suit seeks to impose liability on
plaintiffs for petitioning and exercise of free expression. The Court concludes that although plaintiffs’
activities are protected by the First Amendment, they
have not carried their burden to show that defendants’
filing of the state suit is not. Consequently, the Court

48a
cannot grant plaintiffs the relief they seek. Because
those two issues are dispositive of the case, the Court
does not reach the parties’ contentions with respect to
state action, qualified immunity, or punitive damages.
A. Plaintiffs’ Activities Are Protected by the
First Amendment
Defendants argue that plaintiffs have not proven
that their petitioning and commentary were protected
by the First Amendment, as required for their First
Amendment retaliation claim. The Court addresses
plaintiffs’ petitioning and commentary in turn.
1. Plaintiffs’ Petitioning Is Protected by the
First Amendment
The First Amendment immunizes plaintiffs’ petitioning from liability, pursuant to the Noerr-Pennington
doctrine,2 the same doctrine that defendants contend
is applicable to the filing of the state suit. “Those who
petition government for redress are generally immune
from . . . liability” under the Noerr-Pennington doctrine. Prof’l Real Estate Inv’rs, Inc. v. Columbia Pictures Indus., 508 U.S. 49, 56 (1993) [hereinafter
PREI]; Herr v. Pequea Twp., 274 F.3d 109, 116 (3d Cir.
2001). The constitutional protection of “peaceable”
petitioning is not determined by either the speaker’s
motivation or the economic impact of the petitioning
on others, “at least insofar as the . . . campaign [is]
directed toward obtaining governmental action.”
NAACP v. Claiborne Hardware Co., 458 U.S. 886, 914
(1982) (quoting E. R. Presidents Conference v. Noerr
2

The doctrine is named for the cases in which it was first
promulgated, Eastern Railroad Presidents Conference v. Noerr
Motor Freight, Inc., 365 U.S. 127 (1961), and United Mine
Workers v. Pennington, 381 U.S. 657 (1965).

49a
Motor Freight, Inc., 365 U.S. 127, 140 (1961)). As one
court stated:
Under the Noerr-Pennington doctrine, it does
not matter what factors fuel the citizen’s
desire to petition government. . . . The only
restriction placed on Noerr-Pennington immunity is that the petitioners must make a genuine effort to influence legislation or procure
favorable government action, rather than
simply using the petitioning process as a
means of interference or harassment (known
as “sham exception”).
Barnes Found. v. Twp. of Lower Merion, 927 F. Supp.
874, 877 (E.D. Pa. 1996). Petitioning is a “sham” only
if it is both objectively and subjectively baseless—that
is, the petitioner “could not reasonably expect success
on the merits” and subjectively intended to use the
“governmental process—as opposed to the outcome of
that process—as a[] . . . weapon.” Cheminor Drugs,
Ltd. v. Ethyl Corp., 168 F.3d 119, 123 (3d Cir. 1999)
(quoting PREI, 508 U.S. at 60-61). The Court addresses the objective and subjective baselessness of
plaintiffs’ petitioning in turn.
The record before the Court shows that plaintiffs’
lobbying was not objectively baseless and therefore not
a sham. Plaintiffs could “reasonably expect” to succeed
on the merits of at least some portion of plaintiffs’
requests, as demonstrated by the “guidance” provided
by PSBA to its members. Cheminor, 168 F.3d at 123;
cf. Dentsply Int’l v. New Tech. Co., No. 96-cv-272 MMS,
1996 U.S. Dist. LEXIS 19846, at *9 (D. Del. Dec. 19,
1996) (“[L]itigation will not be considered a ‘sham’ so
long as at least one claim in the lawsuit has objective
merit.”). In that guidance, PSBA attorneys advised the
members of PSBA to provide, inter alia, the contact

50a
information used to receive RTKL requests, the
names of union presidents, and collective bargaining
agreements. Verif. Compl. ex. 1. The guidance also
noted that several of plaintiffs’ requests were subject
to fact-intensive balancing tests. Id. ex. 2. Levin
reached similar conclusions in his May 16, 2017,
guidance provided to the members of PSBA. Ex. P-44.
Further, plaintiffs’ lobbying was not subjectively
baseless, as the record establishes that it was genuinely directed toward obtaining the relief sought—
governmental action. Plaintiffs’ lobbying for school
districts to sever their ties with PSBA was directed
at those institutions in emails and RTKL requests.
That lobbying fit closely with Campbell and PFUR’s
known policy goals and history of advocacy. See Jt.
Stip. ¶ 78; Faccinetto Dep. 19:21-21:24, Ex. P-505.
The legal analysis and videos that plaintiffs included
with their RTKL requests is evidence that plaintiffs
subjectively believed that they were entitled to the
documents requested, including those in PSBA’s
possession. Verif. Compl. ex. 5 at 12; Exh. D-192 at 2.
Although PSBA and its members may have found
plaintiffs’ conduct harassing, the record establishes
that plaintiffs’ lobbying was not subjectively baseless,
as it was a genuine effort to procure governmental
action. Thus, plaintiffs’ petitioning and lobbying are
protected by the First Amendment, whatever the
motive or purpose of the activities.3

3

The parties do not address the applicability of the “more
easily” established exception to Noerr-Pennington immunity for
“a pattern of petitioning.” In re Wellbutrin XL Antitrust Litig.,
868 F.3d 132, 157 (3d Cir. 2017) (quoting Hanover 3201 Realty,
LLC v. Village Supermarkets, Inc., 806 F.3d 162 (3d Cir. 2015)).
Under that “more flexible standard” a court “should perform a
holistic review” to determine whether “a series of petitions were

51a
Despite this authority, defendants argue that plaintiffs’ lobbying is not constitutionally protected for
three reasons: (1) RTKL requests are a statutory
right, and consequently, not protected by the First
Amendment, Doc. No. 32-1 at 46; (2) RTKL requests
are limited public fora and plaintiffs violated the
reasonable limitations placed on RTKL requests, id. at
50; and, (3) plaintiffs’ lobbying is not protected by the
First Amendment because they “threaten[ed] taxpayerfunded school districts into complying with [their]
wishes,” in violation of state law, id. at 48. The Court
rejects each of defendants’ three arguments.
First, courts have regularly recognized that statutorily authorized petitions are protected by the First
Amendment. E.g., Herr v. Pequea Twp., 274 F.3d 109,
119 n.9 (3d Cir. 2001) (applications to county planning
commission); Brownsville Golden Age Nursing Home,
Inc. v. Wells, 839 F.2d 155, 160 (3d Cir. 1988) (reports
to state and federal agencies). There is no reason why
petitions pursuant to statutory authority should be
given less protection than petitions independent of
that authority.
Further, the cases cited by defendants on this issue
are inapposite. Despite defendants’ contentions, in
Harper v. EEOC, No. 15-cv-2629, 2015 U.S. Dist.
LEXIS 154916, at *9 (W.D. Tenn. Nov. 17, 2015), the
court concluded that the First Amendment did not
filed with or without regard to merit and for the purpose of using
the governmental process (as opposed to the outcome of that
process) to harm” another. Id. As described above, the record as
a whole shows that plaintiffs intended their petitioning for
the purpose of procuring government action. Thus, assuming
arguendo the standard for a pattern of petitioning is applicable
to this case, the Court concludes that plaintiffs petitioning is still
entitled to First Amendment protection.

52a
guarantee a petitioner that he would receive the
documents he sought under the federal Freedom of
Information Act (“FOIA”), 5 U.S.C. 552. The Harper
court did not conclude that FOIA requests are not
protected under the First Amendment right to
petition. Similarly, in In re Gaydos, 519 U.S. 59, 59
(1996), the Supreme Court concluded that a pro se
petitioner could be denied leave to proceed in forma
pauperis after a series of “frivolous, repetitive filings”
under FOIA. The Gaydos Court did not mention, much
less discuss, the First Amendment.
Second, assuming arguendo that defendants are
correct that RTKL requests may be properly analyzed
as limited public fora, defendants’ argument is
nonetheless misplaced. A forum analysis serves to
determine what burden the government bears in
justifying restrictions on speech. Make the Rd. by
Walking, Inc. v. Turner, 378 F.3d 133, 142 (2d Cir.
2004). Speech in a limited forum, however, is not
automatically removed from the other protections of
the First Amendment merely because the speaker
violated the restrictions placed on that forum.
Plaintiffs’ alleged violations of those restrictions do
not, in themselves, strip plaintiffs’ speech or petitioning of its First Amendment protection and open the
door for suits by third parties such as PSBA. Even if
plaintiffs’ speech were in a limited public forum,
defendants would still need to show that plaintiffs’
speech was actionable defamation or sham petitioning
to remove it from the protections of the First
Amendment.
Third, defendants fail to show that any threats
made by plaintiffs are outside the protection of the
First Amendment. Mere threats, without more, are
still speech and still protected by the First Amend-

53a
ment. See Virginia v. Black, 538 U.S. 343, 359 (2003)
(“[P]olitical hyberbole’ is not a true threat.”). Plaintiffs’
statements that they would appeal the denial of their
RTKL requests—the only “threat” identified in defendants’ Motion, Doc. No. 32-1 at 48—do not rise to the
level of a “true threat” outside the scope of the First
Amendment.
Defendants nonetheless argue that plaintiffs’ purported threats are actionable because plaintiffs “abandoned [their] First Amendment protections by violating state law on defamation and abuse of process.”
Doc. No. 32-1 at 49 (citing Rouse Phila. Inc. v. Ad Hoc
‘78, 417 A.2d 1248 (Pa. Super. 1979)). This argument
is unavailing because the decision it relies on, Rouse
Philadelphia, Inc. v. Ad Hoc ‘78, addresses “the right
to picket,” which “involves actions as opposed to pure
speech.” Rouse, 417 A.2d at 1256. In Rouse, the
Superior Court of Pennsylvania affirmed a contempt
of court order entered against appellant for his
continued picketing of private businesses despite
an earlier order enjoining such conduct.4 The Rouse
court, however, did not conclude that threatening
speech and lobbying fall outside the protection of the
First Amendment simply because the speech itself
violates state law. To the contrary, that court decided
that certain conduct—including, in that case, the
blocking of business entrances, “physical intimidation
of patrons and store owners, and the setting afire of
4

A second case cited by defendants with respect to this issue,
Al Hamilton Contracting Co. v. Cowder, 644 A.2d 188, 191 (1994),
discusses whether a claim for abuse of process or tortious interference with contract may arise from lobbying a state agency for
certain action, but does not mention or apply the First Amendment in its analysis. Al Hamilton is thus inapplicable to this
issue.

54a
trash receptacles in a densely populated, downtown,
commercial area”—was not entitled to constitutional
protection. 417 A.2d at 1254 (“[A]s a person’s activities
move away from pure speech and into the area of
expressive conduct they require less constitutional
protection.”). Plaintiffs’ lobbying in this case contained
no such conduct and remains within the protections of
the First Amendment.
2. Plaintiffs’ Commentary Is Protected by
the First Amendment
Defendants argue next that plaintiffs’ commentary
is actionable defamation outside the scope of First
Amendment protection because defendants are not
public officials or public figures and plaintiff therefore
is not entitled to the “actual malice” standard under
New York Times Co. v. Sullivan, 376 U.S. 254, 269
(1964). Doc. No. 32-1 at 53. The Court rejects this
argument.
In Sullivan, the Supreme Court concluded that a
“public official” may not recover “damages for a defamatory falsehood relating to his official conduct unless
he proves that the statement was made with „actual
malice’—that is, with knowledge that it was false or
with reckless disregard of whether it was false or not.”
N.Y. Times Co. v. Sullivan, 376 U.S. 254, 279 (1964).
In its decisions following Sullivan, the Supreme Court
extended application of the actual malice standard to
suits by “public figures,” who “occupy positions of such
persuasive power and influence that they are deemed
public figures for all purposes,” and “limited public
figures,” who “have thrust themselves to the forefront
of particular public controversies in order to influence
the resolution of the issues involved.” Gertz v. Robert
Welch, 418 U.S. 323, 345 (1974).

55a
PSBA, which filed the state suit, is, at the very least,
a limited public figure. Limited public figures include
“lobbyist[s]” as well as “the head of any pressure
group, or any significant leader” who “possess[es] a
capacity for influencing public policy.” Pauling v.
Globe-Democrat Publ’g Co., 362 F.2d 188, 196 (8th Cir.
1966). PSBA serves to “further the interests of public
education . . . , to advocate on behalf of public education, and in turn, the ability of public school systems
to do their job and do their job well.” Jt. Stip. ¶ 84. To
carry out its mission, PSBA represents “the interests
of public education” by filing suits in court and
lobbying the legislature. Id. ¶ 85; Defs.’ Resp. ¶ 28.
Consequently, PSBA is at “the forefront of particular
public controversies in order to influence the resolution of the issues involved” and is a limited public
figure subject to the Sullivan actual malice standard.
The record before the Court does not establish that
plaintiffs acted with actual malice. The actual malice
standard is not satisfied by proof of even “highly
unreasonable conduct constituting an extreme departure from the standards of investigation and reporting
ordinarily adhered to by responsible publishers.”
Harte-Hanks Communications, Inc. v. Connaughton,
491 U.S. 657, 666 (1989). Instead, “actual malice”
requires that “the defendant in fact entertained
serious doubts as to the truth of his publication.” St.
Amant v. Thompson, 390 U.S. 727, 731 (1968).
There is no evidence that plaintiffs had such
“serious doubts” as to the truth of their statements.
As the record shows, plaintiffs undertook efforts to
support most, if not all, of those statements. For
example, plaintiffs’ statement that Levin was serving
in a “conflict-riddled role” arose from the fact that
Campbell had discovered that Levin represented both

56a
PSBA and two school districts that had received
PSBA’s advice. P-476, ex. B. Further, plaintiffs stated
that PSBA had “caused a disgraceful abuse of government resources by advising school solicitors that they
may withhold their work email addresses under the
RTKL,” only after learning that PSBA had, in fact,
advised its members to withhold that information.
Defs.’ Resp. ¶ 86. Likewise, the statements in the
images “lampoon[ing]” Mains and PSBA were based
on documents plaintiffs had obtained and the facts set
forth in those statements are correct—PSBA advised
its members that they could require plaintiffs to drive
to the district offices to collect documents, and Mains
earns $226,000 per year. Id. ¶ 66-67, 84. Finally,
plaintiffs published the image with the caption
“Freebie State Government Auto Tags for PSBA!”
after they received a letter from the Pennsylvania
Department of Transportation that it had records
responsive to a request for documents on that issue.
The record of plaintiffs’ efforts to support their
statements negates defendants’ claim that plaintiffs
acted with actual malice.
Defendants argue that plaintiffs’ conclusions that
Levin had a conflict of interest and that PSBA’s advice
to its members was a “disgraceful abuse of government
resources” and the implication that Mains and PSBA
actually said those words contained in the images
posted online are defamatory. The Court rejects
defendants’ contentions. Although plaintiffs’ conclusions may not be correct—and the Court takes no
position on that issue—the record shows that
plaintiffs reached those conclusions based on their
factual investigation. When allegedly defamatory
statements concern public figures, it is not enough
that the statements may be deemed rude, harassing,
or even untrue. Hustler Magazine v. Falwell, 485

57a
U.S. 46, 53 (1988) (“[I]n the world of debate about
public affairs, many things done with motives that
are less than admirable are protected by the First
Amendment.”) The statements must be made with
actual malice to be actionable. Based on the record
before the Court, plaintiffs’ commentary is within the
protection of the First Amendment.
B. Defendants’ State Suit Is Protected by the
Noerr-Pennington Doctrine
1. Applicable Law
Defendants next argue that their filing of the state
suit is protected First Amendment petitioning under
the Noerr-Pennington doctrine. As noted above, the
Noerr-Pennington doctrine “immunizes petitioning
directed at any branch of government, including the
executive, legislative, judicial, and administrative
agencies.” Mariana v. Fisher, 338 F.3d 189, 199 (3d
Cir. 2003) (citing Cal. Motor Transp. Co. v. Trucking
Unlimited, 404 U.S. 508, 510 (1972)). That protection
extends to citizens’ petitioning activities in general,
WE, Inc. v. City of Philadelphia, 174 F.3d 322, 326-27
(3d Cir. 1999), including the filing of a suit in court,
PREI, 508 U.S. at 57 (quoting Cal. Motor Transp. Co.,
404 U.S. at 510).
Under the doctrine, litigation is protected unless it
can be shown to be a “sham” under the two-prong test
described above: first, the activity must be “objectively
baseless in the sense that no reasonable litigant could
realistically expect success on the merits”; second, the
petitioning must be subjectively baseless in that it
“conceals” the “use [of] the governmental process—as
opposed to the outcome of that process—as a[] . . .
weapon.” PREI, 508 U.S. at 60-61 (1993)). “Only if
challenged litigation is objectively meritless may a

58a
court examine the litigant’s subjective motivation.” Id.
at 60. Once defendants show that their activity is
protected by the First Amendment, plaintiffs bear the
burden of proving that defendants’ state suit was a
sham. Id. at 61.
2. Objective Baselessness
Defendants’ argument in their Motion for Summary
Judgment is nearly identical to the one they raised in
their Motion to Dismiss, Doc. No. 16, and Reply Brief
in Support of Defendants’ Motion to Dismiss, Doc. No.
24. In both Motions, defendants focus primarily on
whether the state suit has an objective basis. In
particular, defendants argue in those Motions that (1)
RTKL requests are “process” that may be subject to an
abuse of process claim; (2) plaintiffs’ commentary
would not be perceived by “the average reader” as
satire; and, (3) plaintiffs’ petitioning of school districts
to sever their ties with PSBA was a sham.
In its Memorandum and Order dated June 19, 2018,
denying defendants’ Motion to Dismiss, the Court did
not reach those arguments, concluding the state suit
has an objective basis only if plaintiffs’ underlying
commentary and petitioning are outside the protection
of the First Amendment. Doc. No. 30 at 10. In that
decision, the Court stated that “whether the state suit
has an objective basis hinges on ability to establish in
that suit that plaintiffs’ petitioning was a sham or that
their free expression was actionable defamation.” Id.
In their Motion for Summary Judgment, defendants
nonetheless contend in a footnote that “such a test
would be the Defendants’ burden against a NoerrPennington challenge by Plaintiffs in the underlying
case,” not in this case. Continuing, defendants argue
that “to establish an objective basis, Defendants in
this case must merely show that their claims in the

59a
underlying case are not a sham.” Doc. No. 32-1 at 36
n.8. In sum, defendants argue the Court should
analyze the state claims irrespective of the First
Amendment protection of plaintiffs’ activities.
Defendants’ argument is rejected. Defendants cite
no authority whatsoever to support their argument
that that they need only establish the elements of the
causes of action asserted in the state suit, irrespective
of the First Amendment protections for plaintiffs’
petitioning and commentary, to show the state suit
had an objective basis. To the contrary, the Supreme
Court has instructed that a suit is objectively baseless
if “no reasonable litigant could realistically expect
success on the merits.” PREI, 508 U.S. at 60. To
succeed on the merits in the state suit, defendants
must meet a higher burden of proof in challenging
plaintiffs’ protected First Amendment activity—
namely, that plaintiffs’ RTKL requests and lobbying
were shams or that their commentary was undertaken
with actual malice. PREI, 508 U.S. at 60-61; Hustler
Magazine, 485 U.S. at 57. In assessing the objective
baselessness of the state suit, this Court must consider
that additional burden.
Other courts have also considered the First Amendment protection accorded to activity challenged in a
state suit when assessing the objective basis of that
suit. In Bartley v. Taylor, 25 F. Supp. 3d 521, 535
(M.D. Pa. 2014), cited by defendants, the district court
granted summary judgment for the defendant on the
ground that the state libel suit at issue in that case
was immunized by the Noerr-Pennington doctrine.
Plaintiff in that case alleged that the state libel suit,
filed by defendant, constituted First Amendment
retaliation. The Bartley court concluded that the
state libel suit had an objective basis because “it was

60a
not unreasonable” for the federal defendant, plaintiff
in the state suit, to “believe” that an article written by
plaintiff was libelous, as “it insinuated her liability in
a lawsuit to which she was not a party.” Id. at 537.
Continuing, the court ruled that defendant’s state suit
was a “non-sham” because the challenged speech was
reasonably considered “actionable defamation.” Id. at
538.
In this case, however, the record does not establish
that plaintiffs’ underlying activities constitute actionable defamation or are otherwise outside the protection of the First Amendment. As described above,
defendants are public figures who advocate for certain
policies related to public schools. Plaintiffs’ commentary criticized defendants for their advocacy and their
relationship to Pennsylvania’s public schools. Consequently, the state suit has an objective basis only if
their petitioning was a sham or if plaintiffs undertook
their commentary with actual malice, neither of which
is supported by the record. Thus, the Court concludes
that the state suit is objectively baseless.
3. Subjective Baselessness—Plaintiffs’ Burden of Proof
Because the Court concludes that the state suit is
objectively baseless, it next considers whether the
state suit has a subjective basis. See PREI, 508 U.S. at
60 (“Only if challenged litigation is objectively meritless may a court examine the litigant’s subjective
motivation.”). A suit is subjectively baseless if it “conceals ‘an attempt to interfere directly with the
[interests of another],’ through the ‘use [of] the
governmental process—as opposed to the outcome
of that process—as a[] . . . weapon.’” Id. at 60-61
(quoting E. R. Presidents Conference v. Noerr Motor
Freight, Inc., 365 U.S. 127, 144 (1961)) (second

61a
alteration in original). The Supreme Court stated that
subjective baselessness may be established where (1)
the litigant was “indifferent to the outcome on the
merits” of the suit, (2) any recovery “would be too low
to justify . . . investment in the suit,” or (3) the litigant
“decided to sue primarily for the benefit of collateral
injuries inflicted through the use of legal process.” Id.
at 65.
Plaintiffs argue that the state suit was subjectively
baseless because it was brought, not to “obtain[]
damages,” but to “to stop Simon Campbell and PFUR
from sending RTKL requests to PSBA‟s member
districts and to chill [p]laintiffs’ political criticisms of
PSBA.” Doc. No. 68 at 4-5. In response, defendants
contend plaintiffs must meet a higher burden of proof
to establish that the state suit was subjectively
baseless. Id. at 2-4. Because it is a threshold issue in
assessing a motion for summary judgment, the Court
first considers the burden plaintiffs must carry with
respect to subjective baselessness to prevail at trial.
See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252
(1986).
The Court agrees with defendants that plaintiffs
must carry a higher burden to establish subjective
baselessness. In their argument, defendants rely
primarily on the decision in FTC v. AbbVie Inc., No.
14-cv-5151, 2018 U.S. Dist. LEXIS 109628, *54-55
(June 29, 2018). In AbbVie, the court concluded that
defendants had pursued subjectively baseless patent
litigation. In reaching that decision, the AbbVie court
determined that plaintiffs were required to meet a
higher burden of proof in establishing subjective
baselessness—showing “by clear and convincing
evidence that defendants had actual knowledge” that
their challenged petitioning was “baseless.” Id. at *36,

62a
41. The court required a showing of actual knowledge
“so as not to infringe on a party’s constitutional right
to petition the government for redress of grievances.”
Id. at *39.
Further, in determining that actual knowledge had
to be established by “clear and convincing evidence,”
the AbbVie court analogized to the imposition of
liability for enforcing a fraudulently obtained patent,
a type of suit known as a Walker Process claim. In
those claims, there must be “no less than clear, convincing proof of intentional fraud involving affirmative
dishonesty.” Id. at *40 (citing C.R. Bard, Inc. v. M3
Sys., Inc., 157 F.3d 1340, 1364 (Fed. Cir. 1998)). Based
on that standard, the AbbVie court concluded that
subjective baselessness requires establishing actual
knowledge of the underlying petitioning’s baselessness by clear and convincing evidence.
This Court agrees with the conclusion in AbbVie
that establishing exceptions to First Amendment
protection demands that plaintiffs carry a higher
burden of proof, that is, proof by clear and convincing
evidence. For example, the Walker Process claims
discussed in AbbVie require proof of fraud by clear and
convincing evidence. Those claims are considered a
“distinct avenue[] by which a party can lose NoerrPennington immunity” under the First Amendment.
Similarly, the “actual malice standard” for defamation
claims “is satisfied only on clear and convincing proof
that the defamatory falsehood was made with
knowledge of its falsity or with reckless disregard for
the truth.” Marcone v. Penthouse Int’l Magazine for
Men, 754 F.2d 1072, 1088 (3d Cir. 1985) (internal
quotation marks omitted). The Court concludes that
the First Amendment requires that subjective baselessness in this case be established by that same

63a
standard. Consequently, plaintiffs must show the
state suit was subjectively baseless by clear and
convincing evidence.
4. Subjective Baselessness—No Reasonable
Factfinder Would Conclude that Plaintiffs Have Met Their Burden of Proof
The Court next considers whether a reasonable factfinder could conclude that plaintiffs have met that
burden. As noted above, a suit may be subjectively
baseless where the litigant was “indifferent to the
outcome on the merits” of the suit, any recovery “would
be too low to justify . . . investment in the suit,” or the
litigant “decided to sue primarily for the benefit of
collateral injuries inflicted through the use of legal
process.” PREI, 508 U.S. at 65.
Plaintiffs argue that record before the Court supports an inference that the state suit was subjectively
baseless based on (1) statements by defendants and
the members of PSBA, (2) PSBA’s conduct in pursing
the state suit, (3) the filing of an objectively baseless
suit by attorneys “well known for bringing defamation
claims.”
First, plaintiffs point to statements by PSBA, its
Board members, and its Public Entity members that
that suit was filed “as a way of vindicating or protecting PSBA’s member school districts, rather than a suit
to redress PSBA’s alleged injuries.” Doc. No. 68 at 5-6.
For example, Michael Faccinetto, President of the
PSBA Board, testified that PSBA brought the state
suit “to make the harassment of school districts stop.”
Doc. No. 68 at 6 (quoting Faccinetto Dep. 78:1-9, Ex.
P-511). Likewise, in the Complaint filed in the state
suit, defendants alleged that plaintiffs’ lobbying and
commentary constituted “unrelenting harassment of

64a
PSBA [and] its members” and were intended to “cause
PSBA’s 600 plus member entities considerable cost
and inconvenience.” Id. (quoting Ex. P-473 ¶¶ 3, 48).
Plaintiffs further support their argument by pointing
to several email “blasts” sent by PSBA to its members,
statements by defendants in settlement negotiations,
and statements by PSBA in this suit. Id. at 7-9, 12-14.
Second, plaintiffs argue that defendants’ manner of
pursuing the state suit is evidence that they “used the
state court litigation process to punish Plaintiffs, and
not to protect PSBA’s reputation.” Doc. No. 68 at 10.
In particular, plaintiffs contend that allegations in the
state Complaint that Campbell sent PSBA attorney
Emily Leader a link to private videos of her family
members in order to threaten her were inaccurate.
Doc. No. 68 at 11 (citing P-473 ¶¶ 26-28). According to
plaintiffs, the link erroneously directed Leader to
her private videos—a result Campbell did not intend—
and defendants did not correct the inaccuracies
despite having have opportunity to do so in the
Amended Complaint. Further, plaintiffs contend that
the Amended Complaint sought to punish plaintiffs for
their conduct following the filing of the state Complaint, “including Campbell’s petitioning to PSBA’s
membership to repudiate the State Tort Action itself.”
Doc. No. 68 at 15.
Plaintiffs also argue with respect to defendants’
pursuit of the state suit that defendants’ issuance of a
litigation hold notice in the state for documents
“dating back to 2010—7 years before [the] alleged
abuse and defamation” and efforts to serve Campbell
by publication are “consistent with the objective of
using the [state suit] as a weapon.” Doc. No. 68 at 1213.

65a
According to plaintiffs, this conduct in pursuing the
state suit shows that suit was filed solely as a weapon
to chill plaintiffs’ speech.
Finally, plaintiffs contend in their third argument
that, because defendants “hired a firm well known for
bringing defamation claims” and pursued the state
suit “despite every red flag and opportunity to stop,”
the Court should infer that the state suit was
subjectively baseless. Doc. No. 68 at 16.
The Court rejects each of plaintiffs’ arguments on
this issue for the following reasons:
First, as defendants point out, defendants’ statements regarding the purpose of the state suit “have
nothing to do with PSBA’s intent in filing” that suit,
but simply state “what a defamation suit is all about.”
Doc. No. 71 at 17, 20-21. “Under the Noerr-Pennington
doctrine, it does not matter what factors fuel [a]
citizen’s desire to petition government,” as long as the
citizen subjectively intended to prevail on the merits
of his or her petition. Barnes Found. v. Twp. of Lower
Merion, 927 F. Supp. 874, 877 (E.D. Pa. 1996). The
statements cited by plaintiffs do not address whether
defendants subjectively intended to prevail on the
merits in the state suit, but only defendants’ stated
reason for filing that suit—that is, “vindicating” the
interests of the members of PSBA. That is irrelevant
for purposes of Noerr-Pennington and does not establish that defendants intended to use the “governmental process[,] as opposed to the outcome of that
process,” as a “weapon.”
Second, the Court rejects plaintiffs’ argument that
defendants’ manner of pursuing the state suit is
evidence of that suit’s subjective baselessness. The
purported inaccuracies in the state suit regarding the

66a
link sent to Leader are insufficient to establish that
the state suit was subjectively baseless. Doc. No. 71 at
24; see Complaint, Ex. D-473 ¶¶ 26-28; Amended
Complaint, Ex. 476 ¶¶ 38-40. Leader herself subjectively believed that plaintiffs had sent the video in
order to “creep [her] out and upset [her] daughter and
[her].” Ex. P-518 70:5-10. Further, those allegations
are directly related to and add context to plaintiffs’
alleged harassment of PSBA and its employees.
Consequently, the inclusion of those allegations—
accurate or not— is evidence that defendants sought
to bolster their claims and does not establish that they
were “indifferent to the outcome on the merits.”
Furthermore, plaintiffs’ argument that the “only
new’ allegations in the Amended Complaint pertained
to Plaintiffs’ RTKL requests and complaints about
PSBA made after PSBA filed the State Tort Action—
including Campbell’s petitioning to PSBA’s membership to repudiate the State Tort Action itself,” Doc. No.
68 at 15-16, is unavailing. As an initial matter, it is
entirely appropriate for a plaintiff to amend its
complaint to add allegations of conduct that occurred
after the filing of the initial complaint. Cf. Fed. R. Civ.
P. 15(a), (d). Further, the allegations added in the
Amended Complaint do not pertain to plaintiffs’
RTKL requests or the lobbying of school districts to
“repudiate” the state suit. Instead, the new allegations
address the parodies posted to Campbell’s personal
website and plaintiffs’ statements that Levin was
serving in a “conflict-riddled role.” Amended State
Complaint, Ex. 476, ¶¶ 24-30, 46-49. Those allegations
are directly related to defendants’ claims and their
addition is evidence that defendants sought to prevail
on the merits in the state suit.
„

67a
The Court also rejects plaintiffs’ arguments regarding the litigation hold notice and service by publication—those facts are simply irrelevant to the ultimate
issue of whether defendants subjectively intended to
prevail on the merits of the state suit. Without more,
the Court declines to infer that defendants’ use of the
tools of litigation is evidence of their indifference to the
merits of that litigation.
Further, the record shows that plaintiffs’ lobbying
campaign continued well after the filing of the Complaint in the state suit. See Doc. No. 71 at 58-64.
Defendants excluded much of this conduct from the
Amended Complaint. Had the state suit been filed
solely to harass or embarrass plaintiffs, defendants
could have included this conduct in the Amended
Complaint. Defendants’ decision to exclude that conduct from the Amended Complaint is evidence that the
suit was tailored to focus on conduct defendants
subjectively believed to be actionable.
Finally, the Court rejects plaintiffs’ third argument,
that defendants’ selection of “a firm well known for
bringing defamation claims” and pursuit of the state
suit “despite every red flag and opportunity to stop” is
evidence that the state suit was subjectively baseless.
Doc. No. 68 at 16. In their argument, plaintiffs rely on
the decision in FTC v. AbbVie Inc., No. 14-5151, 2018
U.S. Dist. LEXIS 109628, at *54. In AbbVie, the court
concluded that because “all of the decision-makers”
who decided to file “objectively baseless [patent]
infringement lawsuits” were “very experienced patent
attorneys,” it was reasonable to conclude that they
acted with the subjective intent to “file sham
lawsuits.”
The AbbVie court emphasized that the individuals
“who made the decision on behalf of AbbVie on

68a
whether to file the objectively baseless lawsuits . . .
were four experienced patent attorneys . . . . The record
reflects that no business executives were in any way
involved—not even with a perfunctory sign-off.” Id. at
*48. In this case, the record shows that the key—if not
exclusive—decisionmakers were school board officials
and the attorneys of PSBA; the record contains no
evidence that any of those individuals were well
versed in the First Amendment. Thus, on this issue,
AbbVie is distinguishable. Further, the fact that
defendants hired a firm well-known for its defamation
work is evidence that defendants subjectively
intended to prevail in the state suit.
Taking the record as a whole, no reasonable
factfinder could conclude that plaintiffs have shown by
clear and convincing evidence that the state suit was
subjectively baseless. Consequently, defendants’
Motion for Summary Judgment is granted.
C. Plaintiffs’ Motion for Leave to Amend the
Complaint Is Moot
Plaintiffs filed a Motion for Leave to Amend the
Complaint to Add a Count for Declaratory Relief on
August 16, 2018. Declaratory judgment is a remedy
and not a cause of action. A plaintiff is “required to
prevail on the merits to obtain declaratory relief.”
Skold v. Galderma Labs., L.P., No. 14-5280, 2017 U.S.
Dist. LEXIS 139217, at *47 (E.D. Pa. Aug. 29, 2017);
see also USX Corp. v. Barnhart, 395 F.3d 161, 166 (3d
Cir. 2004) (holding that a “court cannot provide a remedy, even if one is demanded, when plaintiff has failed
to set out a claim for relief”). Plaintiffs have not
prevailed on the merits of their First Amendment
retaliation claims. Thus, their Motion for Leave to
Amend the Complaint to Add a Count for Declaratory
Relief is denied as moot.

69a
D. Plaintiffs’ Motion for Entry of a Permanent
Injunction Is Denied
Plaintiffs filed their Motion for Entry of a Permanent Injunction on April 20, 2018. To obtain a permanent injunction, the moving party must establish,
inter alia, “actual success on the merits.” Coffelt v.
Fawkes, 765 F.3d 197, 201 (3d Cir. 2014). Plaintiffs
have not succeeded on the merits of their First
Amendment retaliation claims because they have not
established that defendants’ state suit is subjectively
baseless. Consequently, plaintiffs’ Motion for Entry of
a Permanent Injunction is denied.
V. CONCLUSION
For the foregoing reasons, defendants’ Motion for
Summary Judgment is granted, plaintiffs’ Motion for
Leave to Amend the Complaint to Add a Count for
Declaratory Relief is denied as moot, and plaintiffs’
Motion for Entry of a Permanent Injunction is denied.
Judgment is entered in favor of defendants and
against plaintiffs. An appropriate order follows.

70a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
[Filed: August 24, 2018]
————
CIVIL ACTION
No. 18-892
————
SIMON CAMPBELL, and
PENNSYLVANIANS FOR UNION REFORM,
Plaintiffs,

v.

PENNSYLVANIA SCHOOL BOARDS ASSOCIATION,
MICHAEL FACCINETTO, DAVID HUTCHINSON,
OTTO W. VOIT, III, KATHY SWOPE, LAWRENCE
FEINBERG, ERIC WOLFGANG, DANIEL O’KEEFE,
DARRYL SCHAFER, THOMAS KEREK, and
LYNN FOLTZ, in their individual capacities,
Defendants.
————
ORDER
AND NOW, this 23rd day of August, 2018, upon
consideration of Plaintiffs Simon Campbell and Pennsylvanians for Union Reform’s Motion for Entry of a
Permanant [sic] Injunction (Document No. 13, filed
April 20, 2018), Plaintiff’s Amendment to Motion for a
Permanent Injunction (Document No. 14, filed April
20, 2018), Defendants’ Memorandum of Law in Opposition to Motion for Entry of Permanent Injunction

71a
(Document No. 18, filed May 4, 2018), Plaintiffs Simon
Campbell and Pennsylvanians for Union Reform’s
Reply in Support of Their Motion for Entry of a
Permanent Injunction (Document No. 20, filed May
14, 2018), Defendants’ Motion for Summary Judgment
(Document No. 32, filed June 29, 2018), Plaintiffs’
Brief in Opposition to Defendants’ Motion for Summary Judgment (Document No. 48, filed July 13,
2018), Defendants’ Reply Brief in Support of Defendants’ Motion for Summary Judgment (Document No.
56, filed July 20, 2018), Plaintiffs’ Supplemental Brief
on Why PSBA’s State Tort Action is Subjectively
Baseless (Document No. 68, filed July 31, 2018), and
Defendants’ Supplemental Brief on Why PSBA’s
State Tort Action Is Not Subjectively Baseless (Document No. 71, filed August 7, 2018), for the reasons
stated in the accompanying Memorandum dated
August 23, 2018, IT IS ORDERED that defendants’
Motion for Summary Judgment is GRANTED and
plaintiffs’ Motion Entry of a Permanant [sic] Injunction is DENIED.
JUDGMENT IS ENTERED IN FAVOR OF defendants, Pennsylvania School Boards Association, Michael
Faccinetto, David Hutchinson, Otto W. Voit, III, Kathy
Swope, Lawrence Feinberg, Eric Wolfgang, Daniel
O’Keefe, Darryl Schafer, Thomas Kerek, and Lynn
Foltz, and AGAINST plaintiffs, Simon Campbell and
Pennsylvanians for Union Reform.
IT IS FURTHER ORDERED that Plaintiffs’ Motion
for Leave to Amend the Complaint to Add a Count for
Declaratory Relief (Document No. 73, filed August 16,
2018) is DENIED AS MOOT.
IT IS FURTHER ORDERED that the Court
RETAINS jurisdiction to address issues related to
defendants’ pending Motion for Imposition of Sanctions

72a
Against Plaintiffs’ Counsel for Violations of the Rules
of Professional Conduct (Document No. 55, filed July
20, 2018). A conference for the purpose of scheduling
further proceedings with respect to the motion for
sanctions will be conducted in due course.
BY THE COURT:
/s/ Hon. Jan E. DuBois
DuBois, Jan E., J.

73a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
[Filed: June 21, 2018]
————
CIVIL ACTION
No. 18-892
————
SIMON CAMPBELL, and
PENNSYLVANIANS FOR UNION REFORM,
Plaintiffs,
v.
PENNSYLVANIA SCHOOL BOARDS ASSOCIATION,
MICHAEL FACCINETTO, DAVID HUTCHINSON,
OTTO W. VOIT, III, KATHY SWOPE, LAWRENCE
FEINBERG, ERIC WOLFGANG, DANIEL O’KEEFE,
DARRYL SCHAFER, THOMAS KEREK, and LYNN FOLTZ,
in their individual capacities,
Defendants.
————
DuBois, J.
June 19, 2018
————
MEMORANDUM
I. INTRODUCTION
In this suit arising under 42 U.S.C. § 1983, plaintiffs
allege that a tort suit filed by defendants in
Pennsylvania state court retaliates against plaintiffs’

74a
exercise of their First Amendment rights of free
expression and to petition the government. Presently
before the Court is defendants’ Motion[s] to Dismiss
Complaint and/or Strike Impertinent and Scandalous
Language (“Motions”). The Court concludes that plaintiff’s Verified Complaint states claims against defendants under § 1983 for First Amendment retaliation
and that nothing in that Complaint warrants striking.
Accordingly, defendants’ Motions are denied.
II. BACKGROUND
The facts below are drawn from plaintiffs’ Verified
Complaint. The Court construes that complaint in the
light most favorable to plaintiffs, as it must in a
motion to dismiss. The facts set forth in the Verified
Complaint may be summarized as follows:
Plaintiffs Simon Campbell and Pennsylvanians for
Union Reform (“PFUR”) are, respectively, a political
activist and a non-profit “affiliated” with Campbell.
Verif. Compl. ¶ 2. Defendants are the Pennsylvania
School Boards Association (“PSBA”) and the ten voting
members of PSBA’s Governing Board (“individual
defendants”), all of whom were elected school board
officials at all times relevant to this case. Id. ¶ 4.
“Nominally organized as a not-for-profit corporation,” PSBA is a voluntary association of Pennsylvania’s
public school districts and “other statutorily-created
public education entities,” each of which is represented in the PSBA by its respective school board
members. Verif. Compl. ¶¶ 4, 64, 75, 77-78. Each
school board votes as a bloc on issues before the PSBA,
including the election of the members of PSBA’s
Governing Board, all of whom are required by PSBA’s
bylaws “to be elected government officials of one of
PSBA’s government entity members.” Id. ¶¶ 76, 78.

75a
PSBA provides its members with a variety of services
including, but not limited to, “training for new school
directors,” “development of school policies” and
administrative regulations, assistance in hiring school
leadership, legislative advocacy, and “represent[ing]
its government entity members’ legal interests in
court proceedings.” Id. ¶ 83.
This case centers on “petitioning activities,” Verif.
Compl. ¶ 3, by plaintiffs related to the PSBA. In
March 2017, Campbell and PFUR sent a request
under Pennsylvania’s Right to Know Law (“RTKL
request”), 65 Pa. Cons. Stat. §§ 701-16, to most public
schools in Pennsylvania, including those that have
elected not to join PSBA.1 Id. ¶¶ 31-32. In May 2017,
plaintiffs submitted a second RTKL request to PSBA’s
member school districts for information regarding
PSBA’s use of funding it receives from its member
school districts. Id. ¶ 36. Upon learning of plaintiffs’
RTKL requests, PSBA attorneys advised its member
school districts to require plaintiffs to travel to each
district to collect the requested documents. Id. ¶ 32.
After Campbell learned that PSBA was instructing
its members to require him to travel to each school
district to collect the requested documents, he posted
an image “lampoon[ing]” PSBA’s Executive Director,
Nathan Mains, to a website he maintained with
“criticism directed at PSBA.” Verif. Compl. ¶ 39. That
image depicted Mains as stating, “Now **** off, and
drive to the school district if you want public records.”
Id. ¶ 50 (alteration in original). Campbell later replaced
Mains’s image with PSBA’s logo, but with similar text,
after he received a cease and desist letter from PSBA’s
1

The Verified Complaint does not disclose the contents of this
request.

76a
outside counsel, Michael Levin.2 Id. ¶¶ 39-41. Campbell
also sent emails regarding his RTKL requests directly
to school districts, in which he “lobbied” the districts
“to terminate the taxpayers’ forced relationship with
PSBA.” Id. ¶ 38.
Based on the above conduct, PSBA’s Governing
Board, whose voting members are the individual
defendants in this case, voted on July 17, 2017, to file
a suit against Campbell and PFUR in the Court of
Common Pleas of Cumberland County (“state suit”).
Verif. Compl. ¶¶ 44-46. The state suit set forth claims
for defamation, abuse of process, and tortious interference with contract. Id. ¶¶ 49-52. In an email “blast” to
PSBA’s member school districts announcing the suit,
PSBA Executive Directors Mains described the suit as
defending PSBA’s reputation and the “contractual
relationship [between] PSBA and its members.” Id.
¶ 54.
Plaintiffs filed suit in this Court on February 28,
2018, alleging that PSBA’s state suit, as well as the
announcement of that suit, the issuance of a litigation
hold notice, and subsequent amendments to its state
complaint were in retaliation for plaintiffs’ exercise of
their First Amendment rights of free expression and
to petition the government for redress. Id. ¶¶ 53-59.
Plaintiff’s Verified Complaint states two counts of
First Amendment retaliation under 42 U.S.C. § 1983,
the first for injunctive relief and the second for compensatory and punitive damages. On April 27, 2018,
defendants filed the Motion[s] to Dismiss and/or
Strike pending before the Court. Defendants’ Motions
are ripe for decision.

2

Levin represents the defendants in this case as well.

77a
III. LEGAL STANDARD
A. Motion to Dismiss
“The purpose of a Rule 12(b)(6) motion is to test the
legal sufficiency of a complaint.” Nelson v. Temple
Univ., 920 F. Supp. 633, 674 n.2 (E.D. Pa. 1996). To
survive a motion to dismiss, plaintiffs must allege
“sufficient factual matter, accepted as true, to state a
claim for relief that is plausible on its face.” Ashcroft
v. Iqbal, 556 U.S. 662 (2009). “A claim has facial
plausibility when the pleaded factual content allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. at
663. In assessing the plausibility of the plaintiffs’
claims, a district court first identifies those allegations
that constitute nothing more than “legal conclusions”
or “naked assertions.” Bell Atl. Corp. v. Twombly, 550
U.S. 554, 555, 557 (2007). Such allegations are “not
entitled to the assumption of truth” and must be
disregarded. Iqbal, 556 U.S. at 679. The court then
assesses “the ‘nub’ of the plaintiffs’ complaint—the
well-pleaded, nonconclusory factual allegation[s]”—to
determine whether it states a plausible claim for
relief. Id. In assessing the “nub” of the complaint, the
Court―accept[s] all factual allegations as true [and]
construe[s] the complaint in the light most favorable
to the plaintiff.” Phillips v. Cty. of Allegheny, 515 F.3d
224, 233 (3d Cir. 2008).
B. Motion to Strike
Defendants have also moved to strike language in
the Verified Complaint pursuant to Federal Rule
of Civil Procedure 12(f). Rule 12(f) provides a “court
may strike from a pleading an insufficient defense or
any redundant, immaterial, impertinent, or scandalous matter.” “Because of the drastic nature of the

78a
remedy . . . motions to strike are usually viewed with
disfavor and will generally be denied unless the allegations have no possible relation to the controversy
and may cause prejudice to one of the parties, or if the
allegations confuse the issues.’” Garlanger v. Verbeke,
223 F. Supp. 2d 596, 609 (D.N.J. 2002). The moving
party bears the burden on a motion to strike, and
“[p]leadings will not be stricken absent clear immateriality or prejudice to the moving party.” Berke v.
Presstek, Inc., 188 F.R.D. 179, 180 (D.N.H. 1998). “Any
doubt as to the striking of matter in a pleading should
be resolved in favor of the pleading.” Hanley v. Volpe,
305 F. Supp. 977, 980 (E.D. Wis. 1969).
C. First Amendment Retaliation Claims Under
§ 1983
Plaintiffs’ Verified Complaint sets forth two claims
for First Amendment retaliation under 42 U.S.C.
§ 1983. Section 1983 provides that “[e]very person
who, under color of any statute, ordinance, regulation,
custom, or usage, of any State . . . subjects, or causes
to be subjected, any citizen of the United States . . . to
the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress.” 42 U.S.C.
§ 1983; accord Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526
U.S. 40, 49–50 (1999). By the terms of § 1983, “two—
and only two—allegations are required in order to
state a cause of action under that statute. First, the
plaintiff must allege that some person has deprived
him of a federal right. Second, he must allege that the
person who has deprived him of that right acted under
color of state or territorial law.” Gomez v. Toledo, 446
U.S. 635, 640 (1980).

79a
Plaintiffs allege they were deprived of a federal
right when defendants retaliated against them for
exercising their First Amendment rights. “In order to
plead a retaliation claim under the First Amendment,
a plaintiff must allege: (1) constitutionally protected
conduct, (2) retaliatory action sufficient to deter a
person of ordinary firmness from exercising his constitutional rights, and (3) a causal link between the
constitutionally protected conduct and the retaliatory
action.” Thomas v. Indep. Twp., 463 F.3d 285, 296 (3d
Cir. 2006). In addition to the above elements, a First
Amendment claim requires the defendant to be a state
actor, which satisfies the requirement under § 1983
that the defendant act under color of state law.
Brentwood Acad. v. Tenn. Secondary Sch. Ath. Ass’n,
531 U.S. 288, 295, 121 S. Ct. 924, 930 n.2 (2001). It is
under this law that the Court considers defendants’
Motions.
IV. DISCUSSION – MOTION TO DISMISS
In their Motion to Dismiss, defendants raise five
arguments: (1) defendants were not state actors for
purposes of plaintiffs’ First Amendment claims; (2)
defendants are immune from liability under the NoerrPennington doctrine; (3) the individual defendants are
entitled to qualified immunity; (4) the Court should
abstain from deciding the case under the Younger
abstention doctrine; and, (5) as a governmental entity,
PSBA is not liable for punitive damages.
A. State Action
Because it is a required element of plaintiffs’ claims,
the Court first considers defendants’ argument that
neither PSBA nor its individual board members were
state actors for purposes of plaintiffs’ First Amendment claims. A private entity may be shown to be a

80a
state actor under a variety of tests, including where
the entity acts with the “coercive power” of the state,
the state provides the private entity with “significant
encouragement, either overt or covert,” the private
entity operates as a “willful participant in joint
activity with the State or its agents,” or the private
entity is “entwined” with governmental policies or
control. Brentwood Acad., 531 U.S. at 296 (citations
omitted). “Under any test, “[t]he inquiry is factspecific’” and “labels are not dispositive.” Kach v. Hose,
589 F.3d 626, 646, 649 n.22 (3d Cir. 2009) (alteration
in original) (quoting Groman v. Twp. of Manalapan,
47 F.3d 628, 638 (3d Cir. 1995)).
Defendants argue that they are not state actors,
because their state suit “is not a government function”
and PSBA is not under the “control of the state.” Doc.
No. 16-1 at 24, 30. In response, plaintiffs contend that
defendants are state actors under the “entwinement”
standard applied by the Supreme Court in Brentwood
Academy v. Tennessee Secondary School Athletic
Association, 531 U.S. at 295. Doc. No. 19 at 3. For the
reasons stated below, the Court agrees with plaintiffs.
In Brentwood, the Supreme Court concluded that a
state athletic association of public and private high
schools acted under color of state law because the
“private character of the Association [was] overborne
by the pervasive entwinement of public institutions
and public officials in its composition and workings.”
531 U.S. at 298. The Supreme Court reached that
conclusion because 84% of the Association’s members
were public schools, each school was entitled to vote
for the members of the Association’s governing board,
and the Association’s governance of “[i]nterscholastic
athletics obviously play[ed] an integral part in the
public education of Tennessee.” Id. at 299-300.

81a
The same analysis applies in this case. Although
PSBA is a private entity, its membership is composed
entirely of public schools represented by their school
board officials. As in Brentwood, those schools vote for
the members of the PSBA’s Governing Board, each of
whom must also serve as an elected school board
official. Furthermore, the PSBA, at the direction of its
board, provides key services to its public school members, including legal advice, lobbying of the state
legislature, and the filing of the state suit at issue
in this case. Taking the allegations of the Verified
Complaint as true, the Court concludes, pursuant to
Brentwood, that defendants are state actors for purposes of plaintiffs’ First Amendment claims.
B. Noerr-Pennington Doctrine
1. Applicable Law
Defendants also argue that the Verified Complaint
must be dismissed under the Noerr-Pennington doctrine. The Noerr-Pennington doctrine3 “immunizes
petitioning directed at any branch of government,
including the executive, legislative, judicial, and
administrative agencies.” Mariana v. Fisher, 338 F.3d
189, 199 (3d Cir. 2003) (citing Cal. Motor Transp. Co.
v. Trucking Unlimited, 404 U.S. 508, 510 (1972)).
Although the doctrine originally developed in the
antitrust context, the Third Circuit and the other
Courts of Appeals have expanded the doctrine to
generally protect citizens’ petitioning activities. WE,
Inc. v. City of Philadelphia, 174 F.3d 322, 326 (3d Cir.
1999).
3

The doctrine is named from the cases in which it was first
promulgated, Eastern Railroad Presidents Conference v. Noerr
Motor Freight, Inc., 365 U.S. 127 (1961), and United Mine
Workers v. Pennington, 381 U.S. 657 (1965).

82a
Under the doctrine, petitioning is protected unless it
can be shown to be a “sham” under a two-prong test:
first, the activity must be “objectively baseless in the
sense that no reasonable litigant could realistically
expect success on the merits”; second, the petitioning
must be subjectively baseless in that it “conceals” the
“use [of] the governmental process—as opposed to
the outcome of that process—as a[] . . . weapon.”
Professional Real Estate Investors, Inc. v. Columbia
Pictures Indus., Inc., 508 U.S. 49, 60-61 (1993))
[hereinafter, PREI]. Once defendants show that their
activity is protected by the First Amendment, plaintiffs bear the burden of proving that defendants’
petitioning was a sham. Id. at 61.
2. Analysis
In response to defendants’ argument that the state
suit is protected by the Noerr-Pennington doctrine,
plaintiffs contend that (1) “Noerr-Pennington does not
protect state actors” such as PSBA; (2) application of
the Noerr-Pennington doctrine is inappropriate on a
motion to dismiss; and (3) the Court cannot conclude,
based on the allegations in the Verified Complaint,
that defendants’ state suit is not a “sham.”
Plaintiffs’ first two arguments are unavailing. First,
the Third Circuit has expressly held that governmental entities may raise the Noerr-Pennington doctrine
as a defense for their own petitioning of other governmental entities. Mariana v. Fisher, 338 F.3d 189,
200 (3d Cir. 2003). Second, the Courts of Appeals have
affirmed grants of motions to dismiss under the NoerrPennington doctrine. See Mariana, 338 F.3d at 206;
Manistee Town Center v. City of Glendale, 227 F.3d
1090, 1901 (9th Cir. 2000). District courts in this
Circuit have concluded that a case may be dismissed
pursuant to the Noerr-Pennington doctrine so long as

83a
the “court can determine, taking all allegations as
true, that the plaintiff is not entitled to relief as a
matter of law.” Trs. of the Univ. of Pa. v. St. Jude
Children’s Research Hosp., 940 F. Supp. 2d 233, 242
(E.D. Pa. 2013) (Dalzell, J.).
Finally, under that standard, plaintiffs argue that
the allegations in the Verified Complaint are sufficient
to survive dismissal. The Verified Complaint alleges
that defendants’ state suit is in retaliation for plaintiffs’ protected First Amendment petitioning and free
speech activities. Plaintiffs argue that defendants’
state suit thus has no objective basis unless defendants show that plaintiffs’ activities were outside the
scope of the protection of the First Amendment, which
they cannot do based on the allegations in the Verified
Complaint. See Doc. No. 19 at 15-16, 20, 22-23.
The Court agrees with plaintiffs on this issue. The
Noerr-Pennington doctrine protects not only defendants’ filing of the state suit, but also plaintiffs’ petitioning and free speech activities challenged in that
suit. Consequently, whether the state suit has an
objective basis hinges on defendants’ ability to
establish in that suit that plaintiffs’ petitioning was
a sham, PREI, 508 U.S. at 60-61, or that their free
expression was actionable defamation, Hustler
Magazine v. Falwell, 485 U.S. 46, 57 (1988). The Court
cannot conclude that, based on the allegations in the
Verified Complaint, plaintiffs’ activities were a sham
or actionable defamation. Thus, defendants’ Motion to
Dismiss is denied with respect to this argument.4

4

The Court also concludes that, taking the allegations in the
light most favorable to plaintiffs, the Verified Complaint sufficiently alleges that the state suit was filed to use “the governmental process—as opposed to the outcome of that process—as

84a
The Court need not reach plaintiffs’ additional arguments raised in opposition to defendants’ Motion to
Dismiss. Plaintiffs contend, inter alia, that an RTKL
request is not a judicial process that may be subject to
an abuse of process claim and that, as a governmental
entity, PSBA is precluded from bringing a defamation
claim. Doc. No. 19 at 18-19; Doc. No. 24 at 9 (citing
N.Y. Times Co. v. Sullivan, 376 U.S. 254, 291 (1964);
College Sav. Bank v. Florida Prepaid Postsecondary
Educ., 919 F. Supp. 756, 761 (D.N.J. 1996)). Because
of the applicability of the Noerr-Pennington doctrine,
the Court need not reach these additional arguments.
C. Qualified Immunity for the Individual
Defendants
Defendants next argue that if the individual board
members are state actors, they are immunized from
suit by the doctrine of qualified immunity. The doctrine of qualified immunity provides that government
officials are immune from suits for civil damages
under 42 U.S.C. § 1983 “insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818
(1982). Determining whether the defendants are
entitled to qualified immunity is a two-step inquiry,
which may be conducted in either order. Pearson v.
Callahan, 555 U.S. 223, 235 (2009). The first step
of the inquiry is “whether the facts that a plaintiff
has alleged or shown make out a violation of a
constitutional right”; the second is “whether the right
at issue was ‗clearly established’ at the time of
defendant’s alleged misconduct.” Id. at 232 (internal
a[] . . . weapon” and thus is subjectively baseless. PREI, 508 U.S.
at 60-61.

85a
citations omitted). A right may be clearly established
even if there is no “previous precedent directly in
point,” and the ultimate inquiry is whether “a
reasonable official would have known that the conduct
was unlawful.” Leveto v. Lapina, 258 F.3d 156, 162 (3d
Cir. 2001). A defense of qualified immunity “will be
upheld on a 12(b)(6) motion only when the immunity
is established on the face of the complaint.” Id. at 161
(internal quotations and citations omitted).
In response to defendants’ contentions, plaintiffs
argue that the Courts of Appeals have clearly
established that the First Amendment precludes
government officials from filing suits premised on a
citizen’s petitioning of the government. E.g., Cate v.
Oldham, 707 F.2d 1176, 1187 (11th Cir. 1983); Stern
v. United States Gypsum, Inc., 547 F.2d 1329, 1343
(7th Cir. 1977). The Court agrees with plaintiffs that
these cases are sufficient to clearly establish that state
officials may not sue a citizen based on the citizen’s
petitioning of the government. In the Verified Complaint, plaintiffs aver that the individual defendants,
who held their positions on PSBA’s Governing Board
by virtue of their status as state officials did exactly
that, voting to file the state suit in response to
plaintiffs’ petitioning of the government by filing the
RTKL requests and lobbying school districts to sever
ties with the PSBA. Taking these allegations as true—
as it must—the Court concludes that the Verified
Complaint sufficiently alleges the violation of a clearly
established constitutional right and that defendants
are not entitled to qualified immunity at this stage of
the proceedings.
D. Younger Abstention
Defendants next argue that the Court should
dismiss the Verified Complaint under the Younger

86a
abstention doctrine. Under Younger abstention, a
federal court should―decline to enjoin a pending state
court [proceeding] absent a showing that the charges
had been brought in bad faith or with an intent to
harass.” Acra Turf Club, Ltd. Liab. Co. v. Zanzuccki,
748 F.3d 127, 132 (3d Cir. 2014). Defendants
contend that, under Third Circuit precedent applying
the Younger abstention doctrine, they are entitled
to dismissal because there is an―ongoing state
proceeding[]” implicating―important state interests”
that―afford[s] an adequate opportunity to raise
federal claims.” Anthony v. Gerald Council, 316 F.3d
412, 418 (3d Cir. 2003) (citing Middlesex County Ethics
Comm. v. Garden State Bar Ass’n, 457 U.S. 423, 435
(1982)).
5

In response, plaintiffs argue that the Supreme
Court decision Sprint Communications, Inc. v. Jacobs,
571 U.S. 69, 78 (2013), forecloses defendants’ argument. The Court agrees with plaintiffs. In Sprint, the
Supreme Court held that Younger abstention applies
only to three types of state proceedings: (1) “ongoing
state criminal prosecutions” (2) “certain ‘civil enforcement proceedings,’” and (3) “civil proceedings involving certain orders . . . uniquely in furtherance of
the state courts’ ability to perform their judicial
functions.” 571 U.S. at 78 (internal citations omitted).
“After Sprint, the threshold requirement for applying
Younger abstention is that the state civil enforcement
proceeding must be ‘quasi-criminal’ in nature.” Acra,
748 F.3d at 132. Defendants’ state claims ring in tort
and are not “quasi-criminal” in nature. Accord Cate,
707 F.2d at 1184 (holding that claim for malicious
5

The doctrine is named from the Supreme Court decision
Younger v. Harris, 401 U.S. 37 (1971), in which it was first
announced.

87a
prosecution was not a “quasi-criminal” suit entitled to
Younger abstention). Thus, Younger abstention is
inapplicable to this case.
E. Punitive Damages Against the PSBA
In their penultimate argument, defendants contend
that if PSBA is a “government agency,” it cannot be
held liable for punitive damages. It is well established
that punitive damages may be imposed under § 1983
for a defendant’s “reckless or callous disregard for
the plaintiff’s rights.” Smith v. Wade, 461 U.S. 30, 51
(1983). Punitive damages, however, may not be
imposed on municipalities, Newport v. Fact Concerts,
Inc., 453 U.S. 247, 263 (1981), or other government
agencies, Bolden v. Se. Pa. Transp. Auth., 953 F.2d
807, 830 (3d Cir. 1991), even with a showing of
reckless disregard. Plaintiffs concede that if PSBA is a
government agency, it may not be subject to the
imposition of punitive damages, but argue that they
may recover punitive damages from PSBA as “a willful
[private] participant in joint activity with the State or
its agents,” as opposed to an agency of the state. For
the reasons stated below, the Court concludes the
PSBA is not immune from the imposition of punitive
damages.
The parties’ contentions present the question
whether punitive damages may be imposed on a
private entity held to be a state actor for purposes of a
claim under § 1983.6 Courts that have considered that
question have concluded that punitive damages may
6

The cases cited by defendants with regard to this argument,
Feingold v. SEPTA, 517 A.2d 1270, 1276 (Pa. 1986), and Doe v.
Cty. of Ctr., 242 F.3d 437, 457 (3d Cir. 2001), address only the
imposition of punitive damages on government agencies, rather
than private entities, and are inapplicable to this case.

88a
be imposed on private entities under § 1983. See
BARBARA KRITCHEVSKY, Civil Rights Liability of
Private Entities, 26 CARDOZO L. REV. 35, 69 (2005)
(collecting cases). For example, in Segler v. Clark
County, 142 F. Supp. 2d 1264, 1268 (D. Nev. 2001), the
court concluded that Emergency Medical Service
Associates (“EMSA”), a private corporation contracted
to provide medical care to inmates in Nevada prisons,
could be subject to the imposition of punitive damages.
In reaching that decision, the court first concluded
that EMSA “qualifie[d] as a state actor who may be
liable under § 1983” because it was “fully vested with
state authority to fulfill essential aspects of the duty,
place[d] on the State by the Eighth Amendment . . . to
provide essential medical care to those the State had
incarcerated.” Id. at 1268 (omission in original)
(quoting West v. Atkins, 487 U.S. 42, 56-57 (1988)).
However, notwithstanding the status of EMSA as a
“state actor,” the Segler court ruled EMSA was not
immune from the imposition of punitive damages
because it remained a private corporation, reasoning
as follows:
Although EMSA is a state actor through its
contract with [the state], the award of punitive damages against EMSA would not punish taxpayers in the way such a decision
would affect a municipality. Instead, punitive
damages would be assessed against EMSA
which would bear the burden of payment as a
private corporation. Also, the deterrence effect
of an award of punitive damages would impact
EMSA as a private corporation influencing
the possible future actions by EMSA or its
employees.

89a
Id. at 1269 (citing Newport, 453 U.S. at 266-68); accord
Campbell v. Philadelphia, No. 88-cv-6976, 1990 U.S.
Dist. LEXIS 8950, at *20 (E.D. Pa. July 13, 1990).
The conclusion in these cases that private entities
may be subject to the imposition of punitive damages
is supported by the Supreme Court decision in
Newport v. Fact Concerts, Inc. In Newport, the
Supreme Court concluded that punitive damages may
not be imposed on a municipality. 453 U.S. at 271. In
reaching that conclusion, the Court reasoned that,
unlike private entities, municipalities were exempt at
common law from the imposition of punitive damages.
Id. at 259. The Newport court also reasoned that,
unlike punitive damages imposed on a private entity,
the “award of punitive damages against a municipality
‘punishes’ only the taxpayers” and would have little
deterrent effect on misbehavior by government
officials. Id. at 267-70. This Court concludes that the
decision of the Supreme Court in Newport that
municipalities are immune from punitive damages
relies on characteristics unique to municipalities and
is inapplicable to private entities such as PSBA.
Because the Supreme Court decision in Newport
makes the distinction between municipalities and private entities clear, this Court concludes that punitive
damages may be imposed on a private entity under
§ 1983. Thus, defendants’ Motion to Dismiss is denied
with respect to the imposition of punitive damages on
PSBA.
V. DISCUSSION – MOTION TO STRIKE
Finally, with respect to the Motion to Strike, defendants argue that the references in the Verified Complaint to the state suit filed against Campbell and
PFUR as a “SLAPP suit” should be stricken under

90a
Federal Rule of Civil Procedure Rule 12(f) as an
“attempt to improperly characterize the state court
litigation.” The term “SLAPP suit” stands for “strategic lawsuit against public participation” and is used in
some state laws that seek to prevent frivolous lawsuits
aimed solely at chilling the exercise of certain First
Amendment rights. Prudential Ins. Co. of Am. v.
Massaro, No. 97-2022, 2003 U.S. Dist. LEXIS 28799,
at *11 (D.N.J. May 20, 2003). Plaintiffs respond that
they “have not called the PSBA lawsuit a ‘SLAPP Suit’
to blacken PSBA’s name” but because “their claims
hinge on their allegation that PSBA’s tort suit against
them is frivolous, and designed solely to chill their
speech and punish them with the litigation process.”
According to plaintiffs, the term is shorthand for “the
basis of [their] legal theory.”
The Court concludes that the Motion to Strike is
denied. As noted above, Rule 12(f) provides a “court
may strike from a pleading an insufficient defense or
any redundant, immaterial, impertinent, or scandalous matter.” “Because of the drastic nature of the
remedy . . . motions to strike are usually viewed with
disfavor and will generally be denied unless the
allegations have no possible relation to the controversy and may cause prejudice to one of the parties, or
if the allegations confuse the issues.’” Garlanger v.
Verbeke, 223 F. Supp. 2d 596, 609 (D.N.J. 2002). The
moving party bears the burden on a motion to strike,
and “[p]leadings will not be stricken absent clear
immateriality or prejudice to the moving party.” Berke
v. Presstek, Inc., 188 F.R.D. 179, 180 (D.N.H. 1998).
“Any doubt as to the striking of matter in a pleading
should be resolved in favor of the pleading.” Hanley v.
Volpe, 305 F. Supp. 977, 980 (E.D. Wis. 1969).

91a
Defendants have failed to aver that they will be
prejudiced by references to the state suit as a “SLAPP
suit” or that those references have “no possible relation to the controversy.” Thus, the Motion to Strike is
denied.
VI. CONCLUSION
For the foregoing reasons, defendants’ Motion[s] to
Dismiss Complaint and/or Strike Impertinent and
Scandalous Language are denied without prejudice to
defendants’ right to renew the arguments raised in the
Motions by motion for summary judgment or at trial,
if warranted by the facts and applicable law as stated
in this Memorandum. An appropriate order follows.

92a
APPENDIX G
Pennsylvania’s Right-to-Know Law was introduced as
Senate Bill 1 of the 2007-08 legislative session by
Senator Dominic Pileggi. The final version of SB1 was
approved by the Senate, 50-0, and the House of
Representatives, 199-0. It was signed into law on
February 14, 2008.
Act of Feb. 14, 2008, P.L. 6, No. 3
Codified at 65 Pa. Stat. §§ 67.101 et seq.
* * *
CHAPTER 1
PRELIMINARY PROVISIONS
Section 101. Short title.
This act shall be known and may be cited as the Rightto-Know Law.
Section 102. Definitions.
The following words and phrases when used in this act
shall have the meanings given to them in this section
unless the context clearly indicates otherwise:
* * *
“Agency.” A Commonwealth agency, a local agency, a
judicial agency or a legislative agency.
* * *
Financial record.” Any of the following:
(1) Any account, voucher or contract dealing with:
(i) the receipt or disbursement of funds by
an agency; or

93a
(ii) an agency's acquisition, use or disposal
of services, supplies, materials, equipment or
property.
(2) The salary or other payments or expenses paid
to an officer or employee of an agency, including the
name and title of the officer or employee.
(3) A financial audit report. The term does not
include work papers underlying an audit.
* * *
Local agency.” Any of the following:
(1) Any political subdivision, intermediate unit,
charter school, cyber charter school or public trade
or vocational school.
* * *
“Office of Open Records.” The Office of Open Records
established in section 1310.
* * *
“Public record.” A record, including a financial record,
of a Commonwealth or local agency that:
(1) is not exempt under section 708;
(2) is not exempt from being disclosed under any
other Federal or State law or regulation or judicial
order or decree; or
(3) is not protected by a privilege.
“Record.” Information, regardless of physical form or
characteristics, that documents a transaction or
activity of an agency and that is created, received or
retained pursuant to law or in connection with a
transaction, business or activity of the agency. The
term includes a document, paper, letter, map, book,

94a
tape, photograph, film or sound recording, information
stored or maintained electronically and a dataprocessed or image-processed document.
“Requester.” A person that is a legal resident of the
United States and requests a record pursuant to this
act. The term includes an agency.
“Response.” Access to a record or an agency's written
notice to a requester granting, denying or partially
granting and partially denying access to a record.
* * *
Section 302. Local agencies.
(a) Requirement.—A local agency shall provide
public records in accordance with this act.
(b) Prohibition.—A local agency may not deny a
requester access to a public record due to the intended
use of the public record by the requester unless
otherwise provided by law.
* * *
Section 305. Presumption.
(a) General rule.—A record in the possession of a
Commonwealth agency or local agency shall be presumed to be a public record.
* * *
Section 506. Requests.
(a) Disruptive requests.—
(1) An agency may deny a requester access to a
record if the requester has made repeated requests
for that same record and the repeated requests
have placed an unreasonable burden on the agency.
* * *

95a
(d) Agency possession.—
(1) A public record that is not in the possession
of an agency but is in the possession of a party
with whom the agency has contracted to perform a
governmental function on behalf of the agency, and
which directly relates to the governmental function
and is not exempt under this act, shall be considered a public record of the agency for purposes of
this act.
* * *
Section 703. Written requests.
* * *
A written request need not include any explanation of
the requester's reason for requesting or intended use
of the records unless otherwise required by law.
* * *
Section 708. Exceptions for public records.
(a) Burden of proof.—
(1) The burden of proving that a record of a
Commonwealth agency or local agency is exempt
from public access shall be on the Commonwealth
agency or local agency receiving a request by a
preponderance of the evidence.
* * *
Section 1308. Prohibition.
A policy or regulation adopted under this act may not
include any of the following:
(1) A limitation on the number of records which
may be requested or made available for inspection
or duplication.

96a
(2) A requirement to disclose the purpose or
motive in requesting access to records.
* * *
Section 1310. Office of Open Records.
(a) Establishment.—There is established in the
Department of Community and Economic Development an Office of Open Records. The office shall do all
of the following:
* * *
(5) Assign appeals officers to review appeals of
decisions by Commonwealth agencies or local agencies, except as provided in section 503(d), filed
under section 1101 and issue orders and opinions.

